<html>
<title> - BALTIC SEA REGIONAL SECURITY: A FIELD HEARING OF THE U.S. COMMISSION ON SECURITY AND COOPERATION IN EUROPE</title>
<body><pre>[Joint House and Senate Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                 BALTIC SEA REGIONAL SECURITY: A FIELD
                    HEARING OF THE U.S. COMMISSION ON
                   SECURITY AND COOPERATION IN EUROPE

=======================================================================

                                HEARING

                              BEFORE THE

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 2, 2019

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 116-1-3]
                             
                             
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                            


                       Available via www.csce.gov
                       
                             __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-213PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9dedf2ddfee8eee9f5f8f1edb3fef2f0b3">[email&#160;protected]</a>                              
                       
                       
                       
            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS
                    
                    
   HOUSE				SENATE

ALCEE L.HASTINGS, Florida       	ROGER WICKER, Mississippi,
         Chairman			  Co-Chairman
JOE WILSON, South Carolina		BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama		JOHN BOOZMAN, Arkansas
EMANUEL CLEAVER II, Missouri		CORY GARDNER, Colorado
STEVE COHEN, Tennessee			MARCO RUBIO, Florida
BRIAN FITZPATRICK, Pennsylvania		JEANNE SHAHEEN, New Hampshire
RICHARD HUDSON, North Carolina		THOM TILLIS, North Carolina
GWEN MOORE, Wisconsin		        TOM UDALL, New Mexico
MARC VEASEY, Texas			SHELDON WHITEHOUSE, Rhode Island                     
                    
                    
                      EXECUTIVE BRANCH COMMISSIONERS

                  Department of State, to be appointed
                Department of Commerce, to be appointed
                 Department of Defense, to be appointed



                                  [ii]
                                  
                 BALTIC SEA REGIONAL SECURITY: A FIELD

                   HEARING OF THE U.S. COMMISSION ON

                   SECURITY AND COOPERATION IN EUROPE

                              ----------                              

                              July 2, 2019
                              
                             COMMISSIONERS

                                                                   Page
Hon. Roger F. Wicker, Co-Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Robert B. Aderholt, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    28

                   OTHER MEMBERS OF CONGRESS PRESENT

Hon. John Cornyn, a Senator from Texas...........................     8
Hon. Tom Graves, a Representative from Georgia...................    10
Hon. Billy Long, a Representative from Missouri..................    12
Hon. Andy Harris, a Representative from Maryland.................    14
Hon. Lee M. Zeldin, a Representative from New York...............    15
Hon. Jeff Duncan, a Representative from South Carolina...........    16

                               WITNESSES

Lieutenant General Stephen M. Twitty, Deputy Commander, United 
  States European Command........................................     3
Douglas D. Jones, Deputy Permanent Representative, United States 
  Mission to NATO................................................     5
Minister Raimundas Karoblis, Minister of National Defense, 
  Ministry of National Defense of the Republic of Lithuania......    18
Major General Krzysztof Krol, Deputy Chief of the General Staff 
  of the Polish Armed Forces, Republic of Poland.................    20
Permanent Secretary Kristjan Prikk, Permanent Secretary of the 
  Ministry of Defense, Ministry of Defense of the Republic of 
  Estonia........................................................    24
State Secretary Jan-Olof Lind, State Secretary to the Minister 
  for Defense, Ministry of Defense of the Kingdom of Sweden......    25
Director-General Janne Kuusela, Director-General, Defense Policy 
  Department, Ministry of Defense of the Republic of Finland.....    27

                                APPENDIX

Prepared statement of Hon. Roger F. Wicker.......................    34
Prepared statement of Lieutenant General Stephen M. Twitty.......    37
Prepared statement of Deputy Permanent Representative Douglas D. 
  Jones..........................................................    42
Prepared statement of Minister Raimundas Karoblis................    46
Prepared statement of Permanent Secretary Kristjan Prikk.........    48
Prepared statement of State Secretary Jan-Olof Lind..............    50
Prepared statement of Director-General Janne Kuusela.............    52

 
                 BALTIC SEA REGIONAL SECURITY: A FIELD
                   HEARING OF THE U.S. COMMISSION ON
                   SECURITY AND COOPERATION IN EUROPE

                              ----------                              


                              July 2, 2019

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 3:00 p.m. in The Artus Court, 
Gdansk, Poland, Hon. Roger F. Wicker, Co-Chairman, Commission 
on Security and Cooperation in Europe, presiding.

    Commissioners present: Hon. Roger F. Wicker, Co-Chairman, 
Commission on Security and Cooperation in Europe; and Hon. 
Robert B. Aderholt, Commissioner, Commission on Security and 
Cooperation in Europe.

    Other Members of Congress present: Hon. John Cornyn, a 
Senator from Texas; Hon. Tom Graves, a Representative from 
Georgia; Hon. Billy Long, a Representative from Missouri; Hon. 
Andy Harris, a Representative from Maryland; Hon. Lee M. 
Zeldin, a Representative from New York; and Hon. Jeff Duncan, a 
Representative from South Carolina.

    Witnesses present: Lieutenant General Stephen M. Twitty, 
Deputy Commander, United States European Command; Douglas D. 
Jones, Deputy Permanent Representative, United States Mission 
to NATO; Minister Raimundas Karoblis, Minister of National 
Defense, Ministry of National Defense of the Republic of 
Lithuania; Major General Krzysztof Krol, Deputy Chief of the 
General Staff of the Polish Armed Forces, Republic of Poland; 
Permanent Secretary Kristjan Prikk, Permanent Secretary of the 
Ministry of Defense, Ministry of Defense of the Republic of 
Estonia; State Secretary Jan-Olof Lind, State Secretary to the 
Minister for Defense, Ministry of Defense of the Kingdom of 
Sweden; and Director-General Janne Kuusela, Director-General, 
Defense Policy Department, Ministry of Defense of the Republic 
of Finland.

 HON. ROGER F. WICKER, CO-CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Wicker. Good afternoon. This hearing of the United 
States Commission on Security and Cooperation in Europe, the 
U.S. Helsinki Commission, will come to order. Good afternoon to 
everyone. I'm delighted to see this wonderful crowd. And 
welcome to today's field hearing on Baltic Sea regional 
security. This event is the first time in the 43-year history 
of our commission that we convene outside the United States. 
We're here to learn from the incredible group of panelists who 
have agreed to be with us today. But we're also here to 
underscore America's commitment to security in the Baltic Sea 
region, and our unwavering support for U.S. friends and allies.
    I want to begin by thanking the Government of Poland, which 
has been extremely gracious in working with us to organize our 
event here in this extraordinary and beautiful city. Indeed, we 
are especially pleased to be able to hold this event in the 
historic city of Gdansk. There could be no more fitting place 
for us to understand the stakes at play when we talk about 
Baltic Sea regional security. After all, it was just a short 
distance from here that the first shots of the Second World War 
were fired, as Poland, despite a valiant defense, became one of 
the first victims of Nazi Germany.
    The people of Poland endured a cruel and devastating 
occupation that was followed by nearly 40 years of repressive 
communist rule. Through it all, they never lost their core 
conviction that their nation belonged among free democracies. 
Fittingly, it was also in Gdansk where the movement began to 
end that terrible era, taking historic and courageous steps to 
reclaim democracy. The Solidarity Movement became synonymous 
with the transformative wave of protests that swept across 
Eastern Europe and ended with the collapse of communism across 
the region, with the end of the Soviet Union, as well as the 
end of the Soviet Union's violent and illegal occupation of 
Estonia, Latvia, and Lithuania.
    Since that time, Poland has become a good friend, important 
partner, and a stalwart NATO ally. It has assumed its rightful 
place as a leader in a stable and prosperous transatlantic 
community. We recognize that journey has not been easy, but 
nothing worthwhile ever is. Poland was given another chance at 
freedom, and it has not squandered that opportunity.
    I also want to mention that just a few moments ago we went 
to the Basilica of the Assumption of the Blessed Virgin Mary in 
order to pay tribute to the late Mayor Pawel Adamowicz, who was 
murdered just a few months ago. We met Deputy Mayor of Gdansk 
Alan Aleksandrowicz and we expressed America's deepest 
condolences for the loss that this city has experienced. Poles 
will undoubtably draw inspiration from Mayor Adamowicz's legacy 
in public service and civic virtue.
    As we sit today, less than 80 miles from Russia's border, 
citizens of Gdansk are the last to need a reminder that the 
Kremlin has in recent years shattered notions of a predictable, 
stable regional order. With its illegal occupation of Crimea 
and ongoing war against Ukraine, Vladimir Putin's attempts to 
stoke division and instability abroad is felt every day by our 
friends in this region. Our delegation well understands that 
freedom, peace, and prosperity in the Baltic region are crucial 
to European and global security. This region sits at the 
epicenter of Europe's new north, a unique intersection of 
geography, infrastructure, education, good governance, and 
high-technology industries. Eighty million people live here and 
profit from the region's key role in European shipping and 
transit. The region is also a focal point for Europe's energy 
independence.
    We hope our conversation with today's panelists will 
provide a better understanding of how our collective efforts 
will continue to thwart Russia's desire to undermine the peace 
and security of this crucial region. We want to get a sense of 
the threats we should be most concerned about as well as a 
clear understanding of the ways we may best move forward 
together. Moving forward together certainly includes standing 
shoulder-to-shoulder with two non-NATO partners present and on 
the second panel today--Finland and Sweden. Our former 
Secretary of Defense General Mattis put it well recently when 
he saluted, and I quote, ``both of your nations' serious 
approaches to security in support of a global order that 
respects all nations' sovereignty and territorial integrity, 
providing a steady anchor of stability in a region grown more 
tense as a result of Russia's unfortunate, unproductive, and 
destabilizing choices.''
    I want to be clear as I can about what our delegation is 
here to say: That under no circumstances can we be divided from 
our friends and allies, here or elsewhere. I was reminded of 
this key principle when I participated, along with a very large 
congressional delegation, in the commemoration of the 75th 
anniversary of D-Day in Normandy. I'm certain all of my 
colleagues are unanimous in their agreement with the sentiment 
of President Trump on that occasion, and I quote, ``To all our 
friends and partners, our cherished alliance was forged in the 
heat of battle, tested in the trials of war, and proven in the 
blessings of peace. Our bond is unbreakable,'' end quote.
    Our event will proceed in two parts. First, we will hear 
from a panel of officials from the United States. This panel 
includes two speakers, Deputy Commander of the United States 
European Command Lieutenant General Stephen M. Twitty, and the 
honorable Douglas D. Jones, the deputy permanent representative 
of the United States to NATO. We thank both of you gentlemen 
for being here, and we would ask that we begin with Lieutenant 
General Twitty. Thank you so much and you may proceed in your 
own fashion.
    Thank you, sir.

LIEUTENANT GENERAL STEPHEN M. TWITTY, DEPUTY COMMANDER, UNITED 
                    STATES EUROPEAN COMMAND

    Lt. Gen. Twitty. Chairman Wicker and distinguished members 
of the commission, good afternoon and thank you for the 
opportunity to appear before you today on behalf of United 
States European Command [EUCOM] Commander Tod Wolters and the 
over 68,000 brave and dedicated men and women who are currently 
operating in the European theater. The threats facing the U.S. 
interests in the EUCOM area of responsibility are real and 
growing. Our ability to counter these threats depends on a 
highly motivated team of patriots who strengthen solidarity and 
unity with our allies and partners as we improve the 
warfighting readiness of our Joint Force.
    Given our shared values, defending Europe is an essential 
element of defending the United States. Knowing the military 
strength of the Euro-Atlantic, Russia seeks to engage in a 
conflict and competition below the level of armed conflict, as 
they continue to demonstrate a willingness to violate 
international treaties and disregard for the national 
sovereignty of their neighbors. Russia employs a whole-of-
society approach through a wide array of tools to include 
political provocateurs, information operations, economic 
intimidation, cyber operations, religious leverage, proxies, 
and special operations, in addition to their conventional 
military forces.
    In cooperation with NATO, we seek to deter Russian 
adventurism and address the arc of instability building on 
NATO's periphery. Alongside our European partners, the United 
States is fielding an interoperable and multidomain combat-
credible force that underscores our shared deterrent mission 
and demonstrates our unwavering commitment to the collective 
defense from all NATO members. When the Kremlin looks to the 
West, they see a cohesive alliance that has both the military 
capability and the political will to defend its member nations 
to increase posture, operations, and exercises. In security 
assistance, we have increased our building partnership capacity 
activities, special operation forces, and our vertical lift 
capabilities.
    EUCOM is also working a proposed 435 million [dollar] 
integrated air and missile defense project to assist the Baltic 
nations in the development of a robust command and control 
network that will contribute to the NATO deterrent efforts and 
the overall combat credibility of our combat force posture. 
Operationally we have shifted significant U.S. forces in the 
Baltic Sea area region by adopting changes in Operation 
Atlantic Resolve. Where previously there was one U.S. company 
on a 6-month rotation in the Baltic nations, we now support a 
periodic exercise-based presence in the region, in addition to 
undertaking lead nation responsibilities for the NATO Enhanced 
Forward Presence [eFP] battle group in Poland.
    This U.S. eFP Battlegroup became operational in 2007, while 
the United Kingdom, Canada and Germany act as framework nations 
for similar Battlegroups in Estonia, Latvia, and Lithuania 
respectively. We recently concluded our annual BALTOPS [Baltic 
Operations] exercise, which practiced high-end warfare, 
amphibious landing capability, and interoperability in the 
Baltic Sea. EUCOM also supports the NATO Baltic Air Policing 
Mission in the region. EUCOM's Joint Cyber Center also works 
closely with each of the Baltic nations to help buildup 
integrated planning teams, central elements to refine NATO 
cyberspace operations and interoperability. We continue to 
enhance our intelligence sharing and our indication and 
warnings capability with our NATO partners and allies.
    Our Alliance is strong, and our actions prove that we stand 
together in solidarity with NATO and in support of our Baltic 
allies. Since 2015, Congress has authorized and appropriated 
nearly 17 billion [dollars] in EDI [European Deterrence 
Initiative] funds in response to Russia's aggression and malign 
influence. EDI underwrites our Nation's enhanced deterrence and 
our defense posture throughout the theater by prepositioning 
and positioning the right capabilities in key locations in 
order to respond to adversarial threats in a timely manner. As 
stated in the national security strategy, the NATO Alliance of 
free and sovereign states is one of our greatest advantages 
over our competitors. And the United States remains committed 
to our Article 5 obligations. Our bonds are strengthened by a 
shared commitment to collective defense, democratic principles, 
and mutual respect and national sovereignty. Ultimately, the 
United States is safer when Europe is prosperous and stable.
    I close by, again, thanking Congress and this commission 
for your continued support, especially on sustained and 
predictable EDI funding. EUCOM's future success in implementing 
our National Defense Strategy, protecting our NATO allies, and 
deterring Russian malign influence is only possible with 
Congress' support.
    Thank you, and I look forward to your questions.
    Mr. Wicker. Thank you. And we will have a number of 
questions. We appreciate your testimony, General Twitty.
    Mr. Jones, welcome and thank you so much for coming here on 
behalf of our Mission to NATO.

   DOUGLAS D. JONES, DEPUTY PERMANENT REPRESENTATIVE, UNITED 
                     STATES MISSION TO NATO

    Mr. Jones. Thank you, Mr. Chairman, distinguished 
commissioners, Members of Congress, for the opportunity to 
testify here today on the topic of Baltic Sea regional 
security. I'm particularly honored to be speaking on the topic 
here in Gdansk, which is, as the senator mentioned, the 
birthplace of the Solidary Peace Movement. I spent 3 years of 
my life in my youth, from 1978 to 1981, living in Poland when 
my father worked at the U.S. Embassy in Warsaw. And although I 
was young at the time, the significance of what was happening 
in those years, which were the years that Solidarity was born, 
was not lost on me and my siblings, and I would frequently walk 
down to Solidarity headquarters in downtown Warsaw to buy 
Solidarity pins and t-shirts and bags so that we would have our 
own little piece of history.
    And my trip to Poland to speak here today at this hearing 
is my first time back since my family departed in 1981, a few 
months before the Communist government declared martial law in 
an attempt to destroy Solidarity. So it's a particular honor to 
be speaking here today because I believe that this hearing is, 
in its essence, about how do we preserve and defend those 
democratic freedoms that the people of Poland, the people of 
Estonia, the people of Lithuania, and the people of Latvia 
fought for and won, starting with the Solidarity Movement and 
other resistance movements in the Baltic region.
    Today, Western democracies, in particular those on Russia's 
borders, again face a threat from an increasingly aggressive 
Russia intent on dominating Europe and reasserting its global 
influence. To accomplish this, Russia seeks to disrupt and 
undermine Western democracies and their institutions, weaken 
the United States, and divide the NATO Alliance. NATO has 
played a crucial role in the spread of democracy in the Baltic 
region, and in preserving it--first, by protecting Western 
democracies from the reach of communism during the cold war, 
and then by opening its door to the new democracies of Central 
and Eastern Europe and providing them the protection of its 
collective defense. NATO is not only a military alliance but, 
more importantly, an alliance of values--of nations committed 
to the principles of democracy, individual liberty, and the 
rule of law.
    The challenge posed by Russia in the Baltic Sea region is 
real and concerning. Russia treats the Baltic Sea region as its 
own domain, yet we must remember that six NATO countries and 
two key NATO partners--in Finland and Sweden--also border the 
Baltic Sea. The overall security of the Baltic Sea region is 
clearly an area in which the United States and NATO must play 
an important role. In response to Russia's increasing threats, 
NATO took concrete steps in 2014, and 2016, and 2018 to 
strengthen deterrence and defense in the Baltic region. 
Foremost, NATO implemented an Enhanced Forward Presence, 
consisting of multinational Battlegroups in Poland and the 
three Baltic States with contributions from across the 
Alliance. These Battlegroups are a visible and capable 
demonstration of NATO's foundational principle that an attack 
on one ally is an attack on all.
    The United States continues to do its part in each of these 
areas, thanks in large part to the sustained support of 
Congress. Our commitment to Baltic security has been 
demonstrated through the European Deterrence Initiative, which 
exceeds $6 billion in 2019. EDI is an unmistakable signal of 
U.S. resolve to ensure the readiness, responsiveness, and 
resilience of our forces in Europe. And I'm grateful to be 
joined by Lieutenant General Twitty, who's outlined these 
activities from the perspective of European Command.
    But the threat from Russia has evolved beyond simply a 
military one. It includes hybrid attacks--as we've seen in 
Ukraine and Montenegro, to name only two examples--
cyberattacks, and influence operations designed to inflame 
fault lines within our societies and to weaken our democratic 
institutions. To address these new and evolving threats, NATO 
developed a new strategy for responding to hybrid threats and 
established a mechanism to deploy counter-hybrid support teams 
to support allies, and it continues to strengthen its cyber 
defense and response.
    In addition to these many adaptations, to be an alliance 
fit for purpose, NATO must ensure it has the resources 
necessary to sustain a credible deterrent and the requisite 
defense capabilities. For the United States, your support in 
Congress has assured that we will lead by example with defense 
investments that keep our military prepared. Poland, Latvia, 
Lithuania, and Estonia are all meeting their commitments under 
NATO's Wales Defense Investment Pledge to spend 2 percent of 
their GDP on defense. But this approach is not shared by all 
allies. In fact, sustaining our Alliance military strength and 
ensuring NATO has the capabilities to maintain its deterrence 
and defense will only be possible if all allies meet their 
commitments under the Defense Investment Pledge.
    Mr. Chairman, for more than 70 years NATO has been at the 
center of the transatlantic relationship. This year we 
celebrated the 70th anniversary of the Alliance in Washington, 
DC. It was a tremendous milestone. NATO has succeeded for 70 
years because it has constantly adapted to meet new security 
threats. Today, we are making progress, but much more remains 
to be done. The state of our Alliance is strong, but we must 
continue to adapt to ensure our collective security for the 
next 70 years.
    Thank you.
    Mr. Wicker. Well, thank you very much to both of you. And, 
Mr. Jones, let me pass along our appreciation to Ambassador 
Hutchison, our former colleague. I have spoken to her, a number 
of us, in preparation for this hearing. And so please thank her 
for her support and for sending you along. General, thank you 
for being here and for your career of service to the United 
States, which continues.
    Let me make sure we understand the view from a general 
standpoint. Is this region more dangerous than it was 2 years 
ago, or is it less dangerous, General? And how would you 
justify your response?
    Lt. Gen. Twitty. Yes, I will tell you it's more dangerous 
from the standpoint of malign influence. From the standpoint of 
our deterrence capability against a Russian ground threat, I 
would say it's less dangerous. Through your assistance with 
EDI, it allows us to increase our capability, both from an 
exercise standpoint with our Baltic partners and building 
capability and capacity here in terms of infrastructure. And, 
as you know, we also rotate a brigade combat team--an armored 
brigade combat team and an aviation combat team in Poland that 
shores up the deterrence posture in this area.
    Also that's in this area is the eFP, which I spoke of. And 
we've increased our exercise activities. In a year's time, we 
conducted 5 major exercises in the Baltic area now--high-level 
exercises--and then 10 mid-level exercises. So the focal point 
for much of our operations in EUCOM has been here in the Baltic 
area to ensure that we stand shoulder-to-shoulder with our 
Baltic partners.
    Mr. Wicker. So the region is more dangerous than--at least, 
we can say the threat level is higher than it was a few years 
ago. And our response, as far as the United States goes and our 
allies, is stronger as a result of that. Is that correct?
    Lt. Gen. Twitty. Absolutely, sir.
    Mr. Wicker. And a part of our response from the United 
States, and part and parcel to our contribution to the European 
Defense Initiative, is our increase in troop strength, in 
personnel strengths here in the European region. Is that 
correct?
    Lt. Gen. Twitty. That's correct, sir.
    Mr. Wicker. And including also more air strength and our--
the size of our fleet. Would that be correct?
    Lt. Gen. Twitty. That's correct, sir. We've increased here 
in Poland up to 4,000 U.S. military on the ground. As you know, 
a couple of years ago we just had shy of 2,000 soldiers. So we 
increased to 4,000. I think you're aware of the $2 billion 
Polish offer which has been accepted, which will allow us to go 
up to an additional 1,000 soldiers to increase the capability 
here as well.
    Mr. Wicker. Thank you. And this Congress has enacted as a 
statutory provision that the 355-ship requirement is now the 
statutory law of the United States of America. Are you going to 
need a larger or a smaller fleet in the next few years here in 
this region?
    Lt. Gen. Twitty. We will require a larger fleet. We're 
working with the Pentagon and OSD [Office of the Secretary of 
Defense] now. We're looking at two more additional destroyers 
that would come to Europe to allow us to be able to operate not 
only in the North Atlantic, but down through the North 
Atlantic, in the Baltic Sea, in the Black Sea, and into the 
East Mediterranean. If you look at the Russian maritime 
capability and what they're doing now, they're operating in 
those areas. And we need to be able to extend our reach into 
those locations as well.
    Mr. Wicker. Is it fair to say that the additional 
expenditure enacted by this Congress over the past 2 years, or 
the 2-year budget number that was consistent and reliable, is a 
very important part of your capability to provide security?
    Lt. Gen. Twitty. Absolutely. Sir, without EDI we could not 
progress the way that we have progressed over the last 2 to 5 
years. That increased money, it has allowed us to focus on the 
exercises that we require, focus on the interoperability with 
our NATO partners, and to also increase the infrastructure in 
this region. The further you go from west to east, there's an 
immature infrastructure--things such as basing requirement, 
ammunition storage facility, fuel capacity, and so forth. So 
that money has allowed us to do those type things, to posture 
the theater in the east.
    Mr. Wicker. Sir, if we were, for some reason, not able to 
agree on a budget number, and if we moved back to the practice 
several years ago with continuing resolutions and uncertain 
budgetary figures for you for a period of time, what would that 
do to your capability of fulfilling our mission and our aim 
here in the region?
    Lt. Gen. Twitty. Yes, we need sustained and predictable EDI 
funding over the long haul to continue to set the posture that 
is required not only to deter Russian aggression, but indeed to 
defend the Baltic States and the European continent.
    Mr. Wicker. Okay, thank you, very, very much. And who would 
like to volunteer to ask the next question? Senator Cornyn.

             HON. JOHN CORNYN, A SENATOR FROM TEXAS

    Mr. Cornyn. Well, thank you, Chairman Wicker. And thanks to 
our two witnesses for being here today. It's an honor to be at 
this historic hearing on a continent whose last century saw two 
world wars take place. And obviously our goals as a Nation, 
along with our allies, is to make sure we never have to fight 
another war--either here, on the continent, or anywhere else, 
if possible.
    And I want to talk to you a little bit, General, about the 
role of deterrence in a moment, but let me start with you, 
Ambassador Jones. I was very impressed when you and Ambassador 
Hutchison were able to work with our NATO allies and secure 
support for the U.S. decision to announce that Russia had--was 
in violation of the INF Treaty, the Intermediate Range Nuclear 
Forces Treaty. And in fact, isn't it the case that they had 
covertly been developing a ground-launched intermediate-range 
cruise missile in violation of the INF Treaty?
    Mr. Jones. Yes, sir. I would say NATO has had a clear and 
unified position on the INF Treaty. And it was December of last 
year that NATO made its first clear statement on it. And it 
fully supported the U.S. assessment that Russia is in material 
breach of the INF Treaty. The United States has, for years, 
been talking to Russia about this violation. It started in the 
Obama administration. And after repeated interactions with 
Russia, we've been met only with denial and obfuscation, and no 
explanation. And so all 29 allies support this finding that 
Russia is violating the treaty.
    And they also have fully supported the U.S. position that 
if Russia does not return to compliance within a 6-month 
period, that will expire on August 2d, then the United States 
will withdraw from that treaty. And it has reached the 
conclusion of supporting this position of the United States 
because allies know that the United States has remained fully 
compliant with INF throughout its entire 30 years, but a 
situation where one country is complying with the treaty and 
another country is violating that treaty is not sustainable. 
And that's not good for security. It's not good for arms 
control.
    Mr. Cornyn. And, General Twitty, does Russia's development 
covertly of a ground-based cruise missile--is that a 
destabilizing development here in Europe?
    Lt. Gen. Twitty. It absolutely is, sir. And as you know, 
we're watching Russia build its capability and capacity 
closely. They're on a fast-track to modernize, not just on the 
ground-based systems but also their sub capability as well, 
their counter-space activity as well, and many of their ground-
based platforms.
    Mr. Cornyn. Well, as I believe you detailed and Ambassador 
Jones talked about this as well, Russia's behavior sort of 
belies their statements of a desire to--that they desire peace, 
when you look at what they've done not only in Ukraine, in 
Crimea, but in Georgia, when you see what they're doing in 
Syria, and of course what you see them doing even in our own 
elections in 2016, the sort of active measures that they've 
been using to create disruption and discord in democracies, not 
just in Europe but also now in the United States. This is--
strikes me as an ominous development.
    But true to form, the Russians then declared they no longer 
would comply with the treaty, after the United States announced 
that they were in breach of the treaty, and gave them until, I 
think you said, August the 2d in which to negotiate their 
compliance and reenter the treaty. But the fact of the matter 
is that it doesn't appear that they're serious about that at 
all. And I would just ask, Mr. Jones, isn't it true that China 
is not bound by the INF--they weren't a party to the INF, 
correct?
    Mr. Jones. That's correct, sir. I would add just also to 
your comments. Russia is violating the INF Treaty. That's 
received a lot of attention. But it's not the only treaty that 
Russia is in violation of. It's part of a larger pattern. And 
the United States and NATO have called on Russia repeatedly to 
return to compliance of the INF Treaty by destroying the SSC-8 
missile, the violating missile, its launchers and associated 
equipment. But as you say, unfortunately there's been no 
indication yet--any sign that Russia is serious about returning 
to compliance to this treaty.
    And so it is not--we will have to prepare for the 
likelihood that we will be soon in a post-INF world. And NATO 
is preparing to ensure its own deterrence and defense posture 
in that environment. China, as you said, is not a party to the 
INF Treaty. It's a bilateral treaty with only Russia and the 
United States. There were other parties that are--no longer 
hold those missiles.
    Mr. Cornyn. Thank you very much. I have two other--two last 
questions, General Twitty. Why would Russia want to develop 
this system? And how have they deployed it? And what's the 
impact on Europe?
    Lt. Gen. Twitty. Well, the reason why is they seek to 
undermine U.S. influence in Russia--I mean, correction--in 
Europe, No. 1. The second thing, they seek to be a regional 
power--the regional power in Europe. And the third thing is, 
they know with their systems that they can intimidate and bully 
their neighbors, such as in the Baltic States. And so they can 
deploy it in a myriad of ways. One is push it forward into 
Kaliningrad and use Kaliningrad as a base of operations to be 
able to conduct destruction inside Europe. The other one is 
take a tactical nuclear approach from with inside Russia. So 
there are a myriad of ways that they can do this. But they are 
obviously developing capability because they want to compete 
with the U.S.
    Mr. Cornyn. Obviously our military is supposed to fight and 
win our wars, but I think of our military as the peacekeepers, 
the ones that make sure that no one risks war because they fear 
the consequences, in part. What is the--what is the role of 
NATO and Europe defense in deterring Russian aggression? And 
could you explain how they may misinterpret our inaction as 
weakness, and maybe encourage them, via provocation, for 
further aggressive action?
    Lt. Gen. Twitty. Yes, sir. So every single day as one of my 
missions as the deputy commander European Command is to 
determine whether we're pulling the right levers to deter 
Russian aggression in the European theater. We do that along 
with NATO and at headquarters. So there's various capabilities 
and activities that we do to act as a deterrent, mostly focused 
on Russia's malign activities, particularly here in the 
Baltics. We see them conducting cyber operations here in the 
Baltics to intimidate the government here, to undermine the 
government here. You see the propaganda and information 
campaign that they're doing with the local populace in our 
Baltic States.
    We conduct information campaigns along with it, counter 
cyber operations as well, to support our NATO partners and 
members in that effort as well.
    Mr. Wicker. Thank you very much, Senator Cornyn.
    Mr. Jones, what other treaties have--quickly--are the 
Russian leaders violating?
    Mr. Jones. I would say the Open Skies Treaty, Vienna 
Document, INF come to mind.
    Mr. Wicker. Okay. And if you could supplement that answer 
that would be helpful.
    We have Representative Tom Graves.

         HON. TOM GRAVES, A REPRESENTATIVE FROM GEORGIA

    Mr. Graves. Thank you, Mr. Chairman. First, let me thank 
you for assembling this conversation today. I think this is a 
very important topic to be discussed. And no better location to 
have that discussion than this important region. So thank you 
for the effort of you and your team to do this.
    General Twitty, you referenced, I guess, Kaliningrad, and 
that territory. Can you help us understand, what is--what is it 
being used for, what do you see happening there--you know, some 
of the new developments of that territory, and the strategic 
positioning of that area and what it might mean to this region?
    Lt. Gen. Twitty. Thank you for the questions.
    First of all, as you know, Kaliningrad is noncontiguous to 
Russia. It is used as a forward location that can provide 
significant military capability for Russia. As you look at 
Kaliningrad today, they have about two brigades of infantry and 
armor sitting there. They also have a significant integrated 
air defense missile capability there, in the form of SA-20s and 
SA-21s. In the Baltic Sea, where they have a seaport there, 
they have a pretty significant naval capability there. And so 
overall they have forward capability that they could use its 
geographical location to its advantage.
    Now, the disadvantage is, if you look at where Kaliningrad 
is, it's surrounded by two NATO countries--Poland to the south 
and Lithuania to the north. And just as they are positioning 
capability forward, we're positioning an equal capability to be 
able to counter the Kaliningrad threat that we have.
    Mr. Graves. So you would consider it, in essence, a 
military outpost?
    Lt. Gen. Twitty. If you want to call it that. It has the 
capability to be a formal outpost from which to launch 
significant capability from Russia into Europe.
    Mr. Graves. Do you have any concerns about nuclear weapons 
in that region--to be deployed from that region at all?
    Lt. Gen. Twitty. It's a possibility. As you probably have 
heard, they have the Iskander that's located also in 
Kaliningrad. I have no reports of whether they have nuclear-
capable cruise missiles at Kaliningrad. But that Iskander has 
the capability to launch nuclear weapons.
    Mr. Graves. I guess my last question about that territory, 
have you seen a recent uptick or a building up of military 
forces or strength in that region within the last 6 months, 8 
months, 12 months?
    Lt. Gen. Twitty. In the past year we've seen an increase of 
bombers as well as fighters. They have approximately three 
fighter units--fighter squadrons in Kaliningrad, approximately 
two bombers and one fighter squadron. So we have seen an 
increase in fighter capability into Kaliningrad.
    Mr. Graves. Thank you. Thanks for that report. Thanks for 
keeping an eye out on that territory.
    Mr. Jones, we have taken action from a U.S. perspective to 
enact sanctions against many leaders in Russia, and Russian 
companies. Are you seeing positive impact? Is that helpful? Or 
should there be more? And are other NATO countries 
participating equally? Or what's your perception on that 
impact? Is it helpful?
    Mr. Jones. Thank you for the question. And I would say yes, 
it is helpful. There have to be clear consequences for Russia 
for its behavior. And that's an important part of deterrence. 
They have to know that there will be repercussions for the kind 
of aggressive behavior, and those repercussions can come in 
different ways. But sanctions is an important element of that. 
We have seen some European allies and the European Union have 
also implemented sanctions, particularly in response to events 
in Ukraine. And as always, we're more powerful when we act 
together, can send a more unified message.
    Mr. Graves. Mmm hmm. And after the aggressive acts toward 
Crimea a lot of folks have similar concerns about this region 
as well. Is that something that you think is a possibility, or 
is this--are we overly concerned about that? Is this a 
different perspective because these are NATO countries? What 
would your response be to that?
    Mr. Jones. Well, we are concerned about it, because we've 
seen Russia is becoming increasingly aggressive and it's 
using--it has sought to--it is seeking as part of a 
comprehensive strategy to weaken ourselves, the United States, 
our allies, and the NATO Alliance. It is different. These 
countries that we're talking about today are NATO allies. And 
they're under the protection of Article 5. So it would be a 
very different ball game. That would be an attack on the 
Alliance as a whole.
    I think what we're especially concerned about is Russia's 
use of hybrid warfare and its attempts to undermine the allies 
and, in particular in this region, using tactics that fall 
below the threshold of Article 5 in an attempt to achieve their 
aims without invoking a full military response. That's the area 
where NATO has built up increasing capability, but it's one 
area where I think there's also more work to be done.
    Mr. Wicker. Thank you very much, Representative Graves. And 
thank you for that last question and for your response, Mr. 
Jones. The Russian invasion of Crimea, the Russian invasion of 
the sovereign nation of Ukraine, was a gross violation of 
international law. It violated every single principle that 
Russia had signed onto as a member of the OSCE. And it was an 
outrage. You have stated that that action against a NATO ally 
would in fact be a different ball game altogether. And I 
appreciate you saying that on the behalf of the United States 
of America. And I would underscore that. And I think every 
member of this panel would underscore this. We have Article 5 
obligations to our NATO allies. And as far as I'm concerned, 
they are sacrosanct and would present a far different scenario 
if anyone were to try that sort of action. So thank you for 
allowing me to interject that.
    We next have Representative Billy Long of Missouri.

        HON. BILLY LONG, A REPRESENTATIVE FROM MISSOURI

    Mr. Long. Thank you. And thank you all for being here today 
and for participating in this historic field hearing. Really 
appreciate it.
    General Twitty, what's Vladimir Putin's biggest fear? 
What's he afraid of?
    Lt. Gen. Twitty. A couple things, I would say, sir. No. 1, 
he fears NATO continues to grow on his periphery. And every day 
he wakes up and looks west, and he sees a pretty credible 
capability and solidarity of a NATO Alliance on his back door. 
So he fears that.
    The other thing that I will tell you that he fears is the 
U.S. in the region. He wants to be the--Russia wants to be the 
dominant regional power in the region. And he's working hard 
through his malign activities to gain that.
    Mr. Long. On a scale of 1 to 10, give a 1 to 10 on the 
success of their buildup--military buildup over the last 10 
years.
    Lt. Gen. Twitty. Russia's buildup?
    Mr. Long. Yes, uh-huh.
    Lt. Gen. Twitty. I will tell you that Russia is growing in 
capability and capacity. What has allowed them to become 
better, quite frankly, is the operations that they've done in 
Ukraine, and continue to do in Ukraine, the operations that are 
going on in Syria. Just like U.S. forces rotating in and out of 
Iraq and Afghanistan, they've gained a lot of experience by 
participating in those operations.
    Mr. Long. And their military buildup, as far as weaponry 
and things, what----
    Lt. Gen. Twitty. Yes. In terms of their military----
    Mr. Long. Pretty successful? I mean, are they eight on a 
scale of 1 to 10, or 10, or----?
    Lt. Gen. Twitty. The oil money and the funding that they 
received as a result of the oil money, he's used it well. In 
terms of his capability and his submarine capability, he's 
probably got one of the best submarine capabilities out there--
[inaudible]. He also has significant space-based capability and 
counter-based space capability. He's improved his air defense 
capability. The SA-21 and SA-20s are pretty good systems. And 
he's also improved his land-based maneuver systems and his tank 
capability, and his infantry fighting capability. And they've 
gone down a pretty serious modernization path that is a pretty 
capable force.
    Mr. Long. Yes. It wouldn't take much to roll into the 
Baltic States, would it--a few short hours?
    Lt. Gen. Twitty. What I will tell you is he's got geography 
at his advantage. But what he doesn't have is an alliance at 
his advantage. And when you look at the capability that's in 
the Baltics now, it's vastly different than the capability that 
you remember from 2014. He's staring at pretty good national 
defense forces, and then he's up against the eFPs that I talked 
about earlier, with readiness, and capacity, and capability, 
presence in this region to be able to counter the threats that 
Russia poses.
    Mr. Long. To paraphrase what you said earlier, you said 
Russia will act below the level of combat, or contact, or 
whatever, but they're precipitously close--I mean, they're so 
close when you're flying jets 50 feet, or whatever, from each 
other, and when you aggressively come after a ship that 
obviously has the right of way and then say, Oh no, America was 
in the wrong. What's his endgame there? I mean, no one wants a 
shooting war. And I wouldn't think Vladimir Putin would want a 
shooting war. But what's his endgame with these acts of 
aggression--that type of aggression, I mean?
    Lt. Gen. Twitty. Yes. A couple of things. Again, he seeks 
to intimidate his neighbors. So the way you intimidate them is 
you fly in the air, you invade Lithuania's air space, and you 
intimidate them. The other thing that I will tell you, if you 
take a look at his flight patterns and so forth, it is my 
assessment that they're probing our response time. They're 
looking to see how--just how capable the U.S. and NATO are in 
terms of deterring and defending Russian capability. So they've 
taken the opportunity to assess us as they do these particular 
operations.
    Mr. Long. Well, when then--if you take Georgia, take 
Crimea. I was in Ukraine shortly--I mean, it was when Putin 
said he didn't have any troops there. The body bags were coming 
from training exercises, so that's how early in that I was 
there. But when you see those type of things that happen, and 
there's no real response, doesn't that embolden Vladimir Putin 
to do more of these aggressive acts, so to speak?
    Lt. Gen. Twitty. It could. The difference, as you know, 
Ukraine, non-NATO partner, but a partner.
    Mr. Long. Right.
    Lt. Gen. Twitty. And so a non-NATO partner, but a partner. 
But what you have here, and we thoroughly demonstrate it by our 
actions and your assistance, is we built the combat-capable 
force in this region--in this region to be able to respond.
    Mr. Long. Just two takeaways from what you said. The 
submarine, the space force--I hope people took note of that--
and thank you, again, for being here.
    I yield back.
    Mr. Wicker. Let's do this--the next three on our list are 
Representative Harris, Representative Zeldin, and 
Representative Duncan. We need to excuse this panel at five 
after the hour, if that's all right. So let's see if the next 
three can divide up 13 minutes evenly. And we'll begin with 
Representative Harris of Maryland.

        HON. ANDY HARRIS, A REPRESENTATIVE FROM MARYLAND

    Mr. Harris. Thanks very much, Mr. Chairman. And I will try 
to be brief.
    Mr. Jones, I appreciate your comments about a family 
connection. My parents came from Galicia and Hungary, escaped 
Russian aggression after World War II. So I can fully 
appreciate, you know, what your family has seen.
    General, let me follow up just briefly on Kaliningrad, 
because I guess the concern would be that the Russian 
capability there could, in effect, block off reinforcement of 
supplies going to a Baltic conflict. Do we have the capability 
now, with EDI, are we developing the capability to make sure 
that doesn't happen?
    Lt. Gen. Twitty. Yes, sir. We absolutely are. First of all, 
before I answer your question, I want to thank you and your 
State partnership program. It's been vital to the region. It 
has allowed us to build the capacity we need with cyber. You 
know, Maryland does it best in terms of having a cyber force to 
help us out in the region, so I want to thank you very much.
    Mr. Harris. Well, you're very welcome.
    And Mr. Jones, just very briefly, you know, how do we push 
back against the argument that the NATO Russia Founding Act 
doesn't allow us to do some of the things which we would--you 
know, rotational forces, et cetera?
    Mr. Jones. Well, I would say to that, that the United 
States and our allies have actually remained fully compliant 
with the NATO Russia Founding Act. It's not something we can 
say about Russia. The NATO Russia Founding Act talks about some 
important principles, like non-use of force, respect for 
sovereignty, peaceful resolution of disputes--all of which it's 
clearly violated through the actions we've talked about in 
Ukraine, Georgia, and more. The United States--NATO and the 
United States, through its actions in--with enhanced forward 
presence, the recent decision in Poland, our assessment is 
those are fully compliant with U.S. and NATO's obligations. 
They are rotational and do not meet the threshold for 
substantial forces.
    Mr. Harris. Thank you very much, Mr. Jones. I yield back.
    Mr. Wicker. Thank you, Representative Harris.
    Representative Lee Zeldin of New York.

       HON. LEE M. ZELDIN, A REPRESENTATIVE FROM NEW YORK

    Mr. Zeldin. Well, thank you to Chairman Wicker and to your 
entire staff for setting this event up. It's an honor, as a 
member of the House Foreign Affairs Committee, to be invited to 
participate in this first meeting of the Helsinki Commission 
outside of the United States. It's a great honor to be here in 
Gdansk, Poland. And also, as someone who represents a robust 
Polish American community, greetings from the east end of Long 
Island, the 1st congressional district of New York.
    Lieutenant General Twitty, thank you for your service. As a 
former ROTC commissionee and Fort Bragg paratrooper----
    Lt. Gen. Twitty. Hoo-ah.
    Mr. Zeldin. I greatly admire your entire history of 
service, going back now decades. And thank you, as well, to Mr. 
Jones for your history of service, including your dedicated 
time toward issues of strengthening alliances all throughout 
the world, including the U.S.-Israel partnership, which I know 
has been a big focus of your career as well.
    I'm going to just ask you to comment about any one or all 
of these three items in our limited amount of time. I'd love to 
be able to get your thoughts on Nord Stream 2, Turk Stream, and 
the discussion with regards to Turkey's acquisition of F-35s 
and S-400s from both the NATO position as well as from the 
EUCOM position. And feel free to take them in any order.
    Lt. Gen. Twitty. Okay. So I'll take the S-400 one. I think 
we've been pretty vocal based on when General Scaparrotti had 
the position, and now General Wolters, sir. Our position is 
that Turkey receives the S-400 then we're pretty clear that 
they should not receive the F-35. I think you're aware now that 
we've instituted an unwind plan, or we've stopped the training 
of Turkey pilots in the U.S. until we can come to resolution 
whether Turkey's going to decide to continue on with their 
efforts with the S-400 or not. It appears that they're going to 
go in that direction. And it was just announced in the open 
press that they should be expecting delivery of that system 
within days. So our view is they do not receive the F-35 if 
they receive the S-400.
    Mr. Jones. Briefly, I would say the Nord Stream project is 
not a project that is contributing to stability in Europe. In 
fact, it will weaken certainly Ukraine's position by depriving 
it of important revenue. And at a time when we are confronting 
Russian aggression and misbehavior, we don't believe these 
types of commercial deals, to which there are alternatives, are 
advisable.
    On the S-400, the general has clearly laid out the position 
of the United States. This is also, of course, an issue for the 
Alliance. And acquisition of the S-400 would hurt 
interoperability within the Alliance. And we hope that Turkey 
does not take possession of this weapon system.
    Mr. Wicker. Do you view Nord Stream 2 as a done deal?
    Mr. Jones. I'd have to ask the Germans. I don't think so.
    Mr. Wicker. Thank you very, very much.
    And now Representative Jeff Duncan of South Carolina.

     HON. JEFF DUNCAN, A REPRESENTATIVE FROM SOUTH CAROLINA

    Mr. Duncan. Thank you, Senator. And I would thank both of 
you for being here and thank you for your service to our great 
Nation. Let me just stress that the U.S. Congress will not 
abdicate this responsibility to support the men and women under 
your command, nor will it abdicate its responsibility to 
support our NATO allies or the Baltic States allies that we 
have.
    General, you said in your statement that when the Kremlin 
looks to the West they see a cohesive alliance that has both 
the military capability and political will to defend its member 
nations. You go on to say that Moscow is intent on undermining 
NATO activity, seeking and exploiting fissures in Alliance 
solidarity. When I think about the recent events in the 
European Union--Brexit coming to mind, but also what President 
Macron said yesterday--reminded his counterparts that the EU 
countries give an image of Europe that's not a serious one.
    So when you talk about fissures, what are we doing to shore 
those fissures up, and how are we meeting them head on? Because 
I don't believe we want to show any weakness to Moscow, and I 
don't think we have any weakness. I think we are showing 
solidarity. I think we're showing strength, and force, and 
numbers, and then financing it. We're seeing NATO and Baltic 
States countries increasing their spending. So how can we make 
sure that you can assure us that those fissures are being 
closed up and addressed?
    Lt. Gen. Twitty. Yes, well, thank you, sir. I think you 
know that I'm from South Carolina. And you're from the great 
State as well. So it's good to see you.
    Mr. Duncan. Go Tigers.
    Lt. Gen. Twitty. I like your tie. [Laughter.] But anyway--
--
    Mr. Wicker. Objection. [Laughter.]
    Lt. Gen. Twitty. But at any rate, to answer your question, 
as you know that we're in an alliance that includes 28 other 
nations. And then you add on the EU there, that's 22 common 
nations when you add on the EU. And as you know, EU will have 
their priorities and we will have our priorities as well. You 
know, one of the priorities in the EU right now, as well as 
NATO, is ensuring the flow of immigration from North Africa up 
into Europe--make sure that they suppress that. And that is a 
priority. And in some cases, if you talk to many of our allies, 
Russia is not the No. 1 priority.
    So it's those type things, ensuring that we stay locked in 
step with continued funding, the 2 percent increase, No. 1. And 
also, that operations and activities and exercises are fully 
funded as part of NATO, and they're actually participating in 
these exercises. And so it's those things that we need to make 
sure that we stay in lockstep and agreement and continue to 
show solidarity.
    Mr. Duncan. Thank you. I would ask Mr. Jones to talk about 
the funding, and how NATO's shoring up or solidifying those 
fissures that we're talking about.
    Mr. Jones. Well, as an alliance of 29 allies, we do have 
disagreements. We don't make a secret of that. But what NATO 
has been successful in doing is always coming together on the 
important issues of deterrence and defense and building strong 
unity within the Alliance. And we've always found ways to come 
to unity on important questions. Defense spending is one area 
where we have, I wouldn't say disagreement, but different 
approaches. But the trend is positive in general. This will be 
the fifth consecutive year of non-U.S. allies increasing 
defense spending. But this year it's predicted that eight 
allies will meet the 2 percent target, as compared to only 
three in 2014. And if you look at the period from 2016 to 2020, 
there'll be almost $120 billion of extra defense spending than 
originally planned.
    The trend is positive. It's just not sufficient. If we are 
to have credible deterrent, all allies must reach that 2 
percent. All allies have agreed that they have made this 
commitment. And we need to continue to push them to meet that 
goal.
    Mr. Duncan. I think that's a great point. Senator, I just 
want to remind the committee here and the CODEL that our 
president has challenged our allies to step up in their defense 
spending. I think they have stepped up. I think we're seeing 
that commitment on NATO, from what I heard from these 
gentlemen. With that, I yield back.
    Mr. Wicker. And thank you. And I certainly want to say that 
on my behalf I hope our Congress continues to meet its 
commitment as we--as we struggle to find a budget number that's 
agreeable in divided government, in two-party Congress.
    Let me--let me thank each one of you, and ask you: Would 
either of you or both of you like to say anything that you feel 
we haven't covered, or make some last few comments in summary 
that this international audience needs to hear?
    General, is there anything you'd like to add?
    Lt. Gen. Twitty. I would just like to say that EUCOM is 
laser-focused on the Baltics. We think we've built tremendous 
capacity, capability and interoperability here. And our plan is 
to continue to stay focused in this area. I think you will see, 
as you move about the Baltic States, new capability that has 
grown within the internal national defense forces, as well as 
the capability that we provided here in the way of the enhanced 
forces presence and our rotational--our armor brigade combat 
team and our aviation combat team. They provide tremendous 
capability to this region.
    Thank you.
    Mr. Wicker. And thank you so much, General.
    Mr. Jones.
    Mr. Jones. Thank you, Senator. I would just like to restate 
the ironclad commitment of the United States to Article 5, 
which has been expressed not only by the president but many 
senior leaders of this administration. The United States 
remains committed to the NATO Alliance, and to keeping it 
strong.
    Thank you.
    Mr. Wicker. Thank you very much to both of you. We will 
excuse you at this point, and we have--our staff is going to 
help us change the nameplates, and we're going to bring our 
distinguished friends from the region forward. So thank you 
very much, and we will stretch for 60 seconds while our friends 
come forward.

    [Break.]

    Mr. Wicker. [Sounds gavel.] If we could convene in the next 
moments, or so. If our witnesses could come forward. And, once 
again, let me thank our first panel for their excellent 
contributions and for the way that our members were able to get 
them to enlarge on their comments. I think this is very 
valuable testimony.
    We now have an extraordinary set of senior officials from 
this region before us today. I want to express my profound 
gratitude to all five of you for taking the time to join us 
here in Gdansk for this very important occasion.
    Our speakers for this panel are Raimundas Karoblis, 
minister of national defense from Poland--from Lithuania. 
Pardon me, yes. Let me get my bifocals adjusted here.
    And then--and then from Poland, Major General Krzysztof 
Krol, deputy chief of defense. From Estonia, Kristjan Prikk, 
permanent secretary and minister of defense.
    Then from Sweden, Jan-Olof Lind, state secretary to the 
minister for defense. And then from Finland, Janne Kuusela, 
director-general of the Defense Policy Department in the 
Ministry of Defense of Finland.
    So, gentlemen, thank you very, very much for participating. 
And I'll begin by calling on Minister Karoblis of Lithuania.

  MINISTER RAIMUNDAS KAROBLIS, MINISTER OF NATIONAL DEFENSE, 
              MINISTRY OF NATIONAL DEFENSE OF THE 
                     REPUBLIC OF LITHUANIA

    Min. Karoblis. Thank you very much, honorable Chairman 
Wicker, members of U.S. Helsinki Commission, ladies and 
gentlemen. I'm highly honored to speak in front of such 
distinguished U.S. Congress delegation. Thank you very much for 
traveling so long from the United States and thank you for your 
keen interest in the security of the Baltic region.
    This lovely, peaceful city of Gdansk is a very appropriate 
place to conduct field hearings on the Baltic security. We are 
just fifty miles away from Kaliningrad area, one of Russia's 
Anti-Access/Area Denial, which is A2/AD, fortresses. The 
missiles that are based in Kaliningrad--and there are many, 
including nuclear-capable Iskander, it was described in the 
previous session--are targeting NATO forces in Europe, their 
ability to reinforce the Baltics in particular. Russian 
intermediate-range missiles, SSC-8, which have been deployed in 
violation of the INF Treaty, also seek to undermine NATO's 
ability to move forces in Europe and to conduct collective 
defense. This is a matter of grave concern of the countries 
located in Russia's neighborhood.
    For many reasons--geographic, historic, social--the Baltic 
region is bound to remain the most vulnerable part of the 
Alliance. It will, therefore, require special attention of NATO 
military planners. Year after year, we observe Russia 
exercising operations against NATO in the Baltics. The focus of 
these exercises is the Suwalki corridor, a narrow strip of land 
between Lithuania and Poland. It is critical for the defense of 
this region. In case of conflict, Polish and Lithuanian forces 
will have a special role to keep this corridor open for allied 
reinforcements. To succeed, we need credible NATO military 
plans, regular exercises, as well as full engagement of the 
United States with its unique military capabilities.
    Taking the opportunity, I would like to thank the U.S. 
Congress for your resolute support to NATO and the 
transatlantic link, which is the core of our security. We would 
not allow other policy issues and disagreements, be it on 
trade, climate, or Middle East, damage the defense relations 
between Europe and the United States.
    I would also like to thank the U.S. Congress for the 
assistance that your country provides to the Lithuanian armed 
forces. With your support, we were able to accelerate our 
capability development programs, in line with NATO priorities, 
expand military infrastructure, which is also used by NATO 
allies, as well as to increase our large-caliber ammunition 
stockpiles.
    This is an issue of beneficial operations. Since 2014, the 
United States has invested nearly $80 million to support the 
Lithuanian armed forces. In this same period, Lithuania has 
committed more than $200 million in national funds to purchase 
U.S. defense articles. This figure is likely to grow 
significantly as new major projects are currently under 
consideration. Mr. Chairman, esteemed Members of the Congress, 
I am proud that Lithuania, together with our Baltic neighbors 
in Poland, are among those allies who already spend 2 percent 
or more of their GDP for defense. This shows our serious 
approach to national security, as well as to our NATO 
commitments.
    We're determined to act as security providers and to show 
solidarity with our allies. Lithuania has deployed forces to 
all key operational theaters, including Afghanistan, Iraq, 
Mali, and Ukraine. Our troops have served side-by-side with 
American soldiers for many years now, and the cooperation 
between the United States and Lithuanian special operations 
forces is truly legendary. At present we are working with the 
U.S. SOF [Special Operations Forces] Command Europe on a new, 
very interesting project to improve situational awareness and 
intelligence sharing in the Baltic region.
    Also we would like to highlight our very close and 
productive cooperation with the Pennsylvania National Guard. 
This partnership is already more than 25 years old and is of 
great value to our countries. And also was example last month--
it was the month of the partnership between Pennsylvania and 
Lithuania. And this was announced by decision of the Senate--or 
the Pennsylvania commonwealth.
    We are also grateful to United States for leading the 
process of NATO adaptation to the new security realities. There 
is a substantial progress in number of areas, including overall 
defense spending within the Alliance. NATO command structure 
and plans will be adjusted to meet the requirements of Article 
5 situations. In this regard, we welcome the establishment of 
U.S. second fleet, which has just completed the first major 
exercise in the Baltics, which is BALTOPS. The Alliance also 
works to improve the readiness of NATO forces and to facilitate 
military movement across Europe. This key stance of work is the 
enduring legacy of the former U.S. Defense Secretary James 
Mattis.
    In conclusion, Mr. Chairman, I would like to highlight two 
areas which now you--will require special attention over the 
coming months. One relates to the recently announced deployment 
of additional U.S. forces to Poland, which we sincerely 
welcome. Presence of U.S. troops changes the risk calculus in 
the Kremlin, making military challenge to NATO considerably 
less likely. We hope therefore that these additional U.S. 
forces will be used to maximize their deterrence value for the 
entire Baltic region.
    The second issue is air defense. This is a critical 
capability gap in Baltics which we urgently need to address 
through our national and NATO efforts. The new Commander 
General Tod Wolters is fully aware of the situation, and we 
look forward to working closely with his staff and chief U.S. 
European Command to address this critical shortfall.
    Mr. Chairman, I thank you very much for the opportunity to 
address this--your distinguished group of U.S. Congressmen. I 
am very much looking forward to our follow-on discussions. I 
will be ready to answer your question to the general treaty 
about are we secure or not, questions about Kaliningrad and 
also, of course, Ukraine, which is keeping the southeastern 
flank of NATO.
    Thank you very much.
    Mr. Wicker. Thank you very, very much, Minister Karoblis. 
We very much appreciate it.
    And Major General Krol, you are next, and you're 
recognized.

MAJOR GENERAL KRZYSZTOF KROL, DEPUTY CHIEF OF THE GENERAL STAFF 
                  OF THE POLISH ARMED FORCES, 
                       REPUBLIC OF POLAND

    Maj. Gen. Krol. Chairman Wicker, distinguished members of 
the commission, thank you very much for this opportunity to 
speak to you about regional perspective on Baltic Sea regional 
security. On behalf of Minister of National Defense, Minister 
Blaszczak, allowed me to express our gratitude for your 
decision to pay a visit to Poland and convene a field hearing 
in Gdansk.
    We are absolutely honored that the commission took decision 
to hold proceedings first time in its 43-year history in 
Poland. And let me also underline that our presence here is 
extremely remarkable, taking into account fact that the Second 
World War outbreak took place near 80 years ago, 1st September, 
1939, a few miles from this location, where armored[?] 
Schleswig-Holstein opened fire from all her guns on the Polish 
army debarkation point at Westerplatte.
    Poland's tragic and existential--the worst possible--
experience from that period established a clear direction in 
our efforts related to building safe and secure environment for 
Poland and for the region. Our attention and efforts 
continuously focused on Russian militarization and aggressive 
behavior, which is the biggest challenge for stability in the 
Baltic region. There is no doubt U.S. involvement is crucial in 
all these efforts.
    Let me present Polish perspective and priorities in 
countering these challenges.
    So, first of all, I'd like to say a few words about Russian 
foreign policy concept promulgated in November 2016, where 
Russia positions itself as an independent global great power. 
Russia is self-
reliant in defense and participates only in Russia-centric or 
Russia-led military alliances. Russia maintains a Russian-
centric economic security order in its neighborhood, claiming 
its sphere of influence.
    What are the Russian--Russia goals and priorities in their 
foreign policy? Weaken the unity of Western policy, accelerate 
inevitable although difficult U.S. adaptation to the realities 
of multipolarity and a world without Western hegemony. So now 
we understand why they behave as they behave.
    Russia is looking forward for opportunities to challenge 
and reshape the post-cold war international order, particularly 
to challenge the U.S. position in areas where Russia claims its 
strategic interests in its Central European neighborhood 
particularly. Russia has a very limited possibility to compete 
in economy for social perspective in citizens' level of life or 
cultural domain. But at the same time, Russia built military 
strength and capabilities to destabilize situation, stimulate 
regional tensions, escalate proxy wars. There is no doubt this 
military tool is the most important in Russia politics 
reservoir.
    Russian Federation executes massive and snap exercises 
ranging from the high north through the Baltic region to the 
Black Sea and Mediterranean region included.
    We witness negative tendencies in the Russian military 
posture. Russian western and southern military districts are 
leaders in terms of modernization and new capabilities 
development.
    Let me provide you some figures concerning Russian State 
armament program 2018-2027. So they decided to spend around 700 
billion U.S. [dollars] officially. However, if--as we calculate 
it, their expenditures, taking into account purchasing power in 
Russian defense industry, the amount increases up to 2.5 times.
    Russia remains the third-largest in the world, with much 
higher percentage--I'm talking about defense spending--and 
Russia has much higher percentage of its defense spending 
dedicated to research and development than in most developed 
European countries.
    We observed that there is visible but no decisive impact of 
sanctions on Russia building its capabilities. We assess that 
Russia will continue to build and develop their capabilities in 
A2/AD systems, electronic warfare, command control, 
communication information, intelligence, surveillance and 
reconnaissance, short-notice readiness, supersonic missile 
systems, cyber, electronic warfare, strategic nuclear triad, 
and non-strategic nuclear capabilities, plus space program.
    Russia is obsessed with maintaining control over escalation 
dynamics. It will seek to determine possible conflict quickly, 
and the chief objectives in a very short period of time, using 
all means at its disposal, conventional or nonconventional. 
Threat of using nuclear weapons, asymmetric responses, hybrid 
tools, use of special operations forces--such as was the 
scenario, for example, of recent exercises, Zapad 2017. We are 
also in front of next exercises, that will be held this fall, 
Union Shield, and we will closely monitor that exercise as 
well.
    It should be also underlined that a large percentage of the 
land component of the Russian armed forces is available at a 
high readiness for short-notice contingencies. Militarization 
of the Baltic Sea region by Russia has already been underlined 
by my predecessor pointing out at Kaliningrad, for example.
    However, let me also underline another area. Russia is 
noncompliant with conventional arms-control regimes and 
confidence and security-building measures. For example, the 
Vienna document and Open Skies Treaty, Russia is constantly 
circumventing the notification or observation commitment in 
case of massive exercises; for example, exercise Zapad already 
referred to.
    Russia alternately increases and decreases the intensity of 
international tensions. We assess that in the future, Moscow, 
playing its game with the West, could try to convince us that 
the regional security situation in Eastern Europe is stable 
again, just like it was prior to Russia-Georgia conflict. So we 
must remember that it might be another Russian test of our 
solidarity and resolve.
    Is Russia willing or ready for any compromise with the 
West? This is another question we're asking ourselves nearly 
every day. In 2017-2018, we did not see any breakthrough from 
the Russian side. Russia continued its aggressive actions, 
persistent violation of international law, military buildup and 
political cohesion.
    Concluding this part, I'd like to underline that we do not 
hope that President Putin's administration will change its 
attitude toward Euro-Atlantic community and reshape its policy 
to Ukraine or Georgia.
    I'd like to say now a few words about hybrid threat, how we 
assess that, not only in a military dimension but also in other 
dimensions. The military pressure is complemented by the hybrid 
warfare, combining different instruments, military and 
nonmilitary, the hostile intentions of below the threshold of 
the recognized war.
    We are targeted by cyberthreats that intensify continues to 
grow. Cyberwarfare does not have a dramatic impact of a 
conventional military attack but have a destructive effect that 
might be even more damaging. The challenge of growing 
importance remains potential interference in the political 
debate of NATO and EU countries.
    Allow me in this place to remind you about Russia's goal to 
accelerate U.S. adaptation to the realities of multipolarity in 
the world without Western hegemony. Adaptation means change of 
the ruling elites. From this perspective, interfering in the 
Western countries' domestic political affairs, meddling in 
democratic elections, active means of disinformation, efforts 
to polarize societies, as well as attempts focused on creation 
and boosting internal discord with Euro-Atlantic and European 
communities, including in variety of countries, is better 
understood, and it requires building proper required resilience 
from our side.
    From Polish perspective, energy security is also important. 
We highly value the cooperation between Poland and the United 
States in the field of energy security; for example, LNG 
[liquid natural gas] long-term contracts. It is important for 
the whole Baltic Sea region, especially in the context of the 
unfortunate Russia-German Nord Stream 2 project.
    Facing a full spectrum of threats and challenges from the 
Baltic to the Black Sea, and also from hybrid to potentially 
high intensity, we need to increase the deterrence and defense 
of our region.
    The ongoing process of enhancing deterrence and defense has 
one ultimate goal: Assure the capability of NATO to conduct, in 
accordance with Article 5 of the Alliance founding treaty, 
large combat operations of collective defense. Collective 
defense remains, in fact, the core mission of the Alliance.
    From military standpoint, the crucial objective is to 
achieve the right balance between forward presence and 
reinforcement for increased deterrence and defense in NATO's 
eastern flank to counter Russia short-notice scenario and 
political and military isolation of the conflict.
    To achieve it, we would continue NATO adaptation. The most 
important focus of these areas are the following: From Polish 
perspective, we welcome and support comprehensive efforts to 
increase NATO ability to reinforce, including full 
implementation of readiness initiative, well-known 
``4<greek-e>30'' project, decided at the Brussels summit; 
continuation of NATO command and force-structure adaptation; 
further streamlining movement of troops across the Euro-
Atlantic area. In this domain, cooperation between NATO and 
European Union, from our perspective, seems to be absolutely 
important.
    Mr. Chairman, distinguished members of the committee, U.S. 
political leadership and meaningful military contribution is 
and continues to be critical for deterrence and defense against 
Russian threat. Therefore, we extremely value current and 
planned increase of U.S. military enduring presence in Poland.
    The U.S. remains the framework nation for the eFP 
Battlegroup deployed to Poland. In 2017, the U.S. deployed an 
Armored Brigade Combat Team and Combat Aviation Brigade in the 
framework of European terrorist initiative, already highlighted 
in front of this commission.
    We also continue the cooperation with Washington in the 
area of missile defense, including contribution of the missile-
defense site-building the missile-defense site in Redzikowo, 
Poland. I'd like to underline also great cooperation and 
support from Illinois National Guard for Polish armed forces 
during operation in Iraq, Afghanistan and elsewhere. This 
cooperation is absolutely great.
    Let me also underline that last month president of Poland 
and U.S. signed a joint declaration on defense cooperation 
regarding U.S. forces' posture in the Republic of Poland. The 
joint declaration forces the establishment of the enduring U.S. 
military presence in Poland and its growth by about 1,000 
additional military personnel in the near term. That means that 
the average U.S. personnel will amount up to 5,500 troops on 
the Polish territory, available for U.S., NATO, and for 
maintaining security in the region.
    Mr. Chairman, commission, I'm more than--I will be more 
than happy to answer any questions you provide.
    Mr. Wicker. Thank you. Thank you very much, General.
    Maj. Gen. Krol. Thank you.
    Mr. Wicker. Let's stay on this side of the sea before we 
jump across. So Secretary Prikk, you are recognized.

PERMANENT SECRETARY KRISTJAN PRIKK, PERMANENT SECRETARY OF THE 
                          MINISTRY OF 
    DEFENSE, MINISTRY OF DEFENSE OF THE REPUBLIC OF ESTONIA

    Sec. Prikk. Honorable Chairman, distinguished 
commissioners, let me first thank you for this very positive 
initiative to hold this field hearing in Europe, to hold it in 
this distinguished city of Gdansk, and give the Estonian 
Government also the opportunity to present our views.
    I won't be able to cover all the issues of interest, so 
I'll focus my remarks on the issue of effectiveness of NATO's 
regional deterrence posture.
    Let me start by saying that NATO's posture in the Baltic 
region has grown much stronger since 2014, in addition to 
significant development of region's home-defense forces, the 
forces of our own militaries, and several counter-hybrid 
efforts. We also have NATO battle groups in all Baltic States 
and enhanced NATO air policing presence and more allied 
maritime visits to our ports. We see an increased number of 
NATO and allied live exercises in the region. The recent 
announced additional presence of larger contingent of American 
troops in Poland further strengthens NATO's posture regionally.
    It is important that those troops also contribute to the 
U.S. military footprint in Lithuania, Latvia and Estonia. This 
would significantly add credibility to NATO's deterrence in the 
Baltic States. However, we all need to understand that the 
current NATO presence is and was never designed to be 
militarily a match to what Russia has in Kaliningrad and the 
western military district and the capabilities that they can 
mobilize very quickly, as we have seen during the latest large-
scale exercises.
    The current NATO presence is primarily political and 
intended to show that NATO and its members would be involved in 
any conflict with Russia from day one. This critical but 
nevertheless limited presence is intended to be complemented by 
a very quick reinforcement by NATO in case of a crisis.
    The problem is that the bulk of NATO forces is still far 
away, and our ability to deploy forces quickly and sustain them 
has important limitations. Issues such as the readiness, 
availability and mobility of our forces, the preparations 
required by means of detailed advance plans, live exercises, 
and swift decision making need further work. Today, Russia 
plans and exercises in the region exactly as they intend to 
fight, and we do not.
    NATO has discussed the need to improve its ability to 
defend against air threats and strengthen its maritime posture 
for years. Despite some steps in the right directions--some 
very important steps in the right direction--we are still not 
very far along.
    In particular, NATO has assessed time and again that the 
Russian air and missile defense and presumed strike 
capabilities would mean a considerable challenge to NATO's line 
of communications and reinforcement. The new SSC-8 capability 
that is in breach of the INF Treaty will add another capability 
into the Russian hands to attack critical targets in the whole 
of European theater.
    All this affects NATO's ability to guarantee the security 
of this region by putting the ability to reinforce by the 
allies at risk. Without real solidarity between allies, NATO 
posture in itself is just an empty shell. Thus, while we are 
strengthening collective defense in practice--and we are doing 
it on a daily basis--we must not forget that the communication 
is a critical part of deterrence. This concerns every ally, but 
in particular the American commitment to the Alliance--that's 
what I would state here--and its willingness to give the 
ultimate guarantee to the Article 5. Therefore, it is of utmost 
importance that we--we all, Europeans and North Americans 
alike--use any opportunity to clearly send the message of 
unwavering commitment and solidarity to each other. We 
collectively have benefited so much from the Alliance. We, 
individually and collectively, have so much to lose from being 
alone.
    That's all for mine. Thanks.
    Mr. Wicker. Well, thank you, and let me just interject 
that, as far as I'm concerned, our commitment to Article 5 is 
absolute. And I hope we can give you that reassurance.
    Let's move along then to Secretary Lind of Sweden. Thank 
you very much for being with us.

STATE SECRETARY JAN-OLOF LIND, STATE SECRETARY TO THE MINISTER 
   FOR DEFENSE, MINISTRY OF DEFENSE OF THE KINGDOM OF SWEDEN

    Sec. Lind. Thank you, Senator Wicker and distinguished 
members of the commission. I would like to echo my colleagues. 
Thank you for organizing this event and giving me the 
opportunity to elaborate a little bit on the Swedish 
perspective on the Baltic Sea security environment.
    First of all, I would like to state--which has been already 
done by others--that the military strategic situation in our 
region has deteriorated. Russian actions in Georgia and Ukraine 
have shown that Russia is prepared to use military force to 
change established borders in Europe. The illegal annexation of 
Crimea and aggression in Eastern Ukraine, Donbass region, is 
the greatest challenge to the European security order since it 
was established 25 years ago. Russia is using a broad variety 
and combination of methods and actions to achieve its 
objectives. This is what we refer as the hybrid threats gray 
zone. The Russian aggression in Ukraine is one example of 
Russia's intention to coordinate relevant instruments of state 
power with the use of proxy fighters to achieve political 
goals.
    In parallel, Russia has shown a more challenging behavior 
in the Baltic Sea region, including disrespect of its 
neighbors' territorial integrity as well as provocative and 
unprofessional behavior in the air and on the sea. Because of 
Russia's interest in the region and as it is one of the busiest 
shipping areas in the world, the significance of the Baltic Sea 
region to European security has increased. Freedom of 
navigation and secure sea lines of communications are 
essential, not only for the countries in the region, but also 
for other nations.
    Russian activities are not only a challenge to the 
countries in its close vicinity; they are also a challenge to 
the right of every country to make their own policy choices. 
This is a cornerstone in the European security order and 
international security order, if you will. Therefore, Russian 
actions are a concern to all of us and make our response all 
the more important.
    The complexity and scale of challenges at hand means that 
no state can face them alone. Together we need to use the 
entire range of security policy instruments, enhanced national 
defense capability, international cooperation, and dialog, and 
confidence-building measures.
    Challenges to European security must be met together, but 
on the national level, every country must take their share of 
responsibility. This is why Sweden is pursuing a defense policy 
with two reinforcing pillars. On the one hand, we are 
strengthening our national military capabilities. The Swedish 
total defense concept, which includes both military and 
civilian defense, is developed in order to meet an armed attack 
against Sweden, including acts of war on Swedish territory.
    On the other hand, we are deepening our security and 
defense cooperation. Sweden gives priority to the cooperation 
with our Nordic neighbors; with Estonia, Latvia, Lithuania; 
with Poland, Germany, and of course, as well as with the U.K. 
and the U.S.
    We are also focusing on our efforts with and within 
multilateral organizations such as the EU and NATO. Regional 
cooperation, like the Nordic Defence Cooperation, and the U.K.-
led Joint Expeditionary Force, are important to complement the 
security network in northern Europe.
    A strong transatlantic link is vital for both European and 
American security. U.S. and NATO presence is necessary for the 
stability in the Baltic Sea region. Therefore, we welcome 
NATO's enhanced forward presence and the increased U.S. 
presence in Europe through the European Deterrence Initiative. 
The eDI has been instrumental for exercises and other joint 
activities. Exercises in the Baltic Sea region signals shared 
responsibility for the security. Maritime exercises like 
BALTOPS and Baltic Protector enhances our interoperability and 
strengthens our common maritime capability.
    Sweden will continue to be an active partner to NATO, and 
our status as Enhanced Opportunities Partner is key in this 
regard. And we share this, of course, with Finland. This 
relationship is crucial to the development of our 
interoperability and capabilities.
    Political dialog on common security challenges and how to 
counter them--in particular in the Baltic Sea region--is 
essential in our cooperation with NATO. We see Northern Europe 
as one strategic area; that is, the Baltic Sea and the Arctic 
area as well. I think they both go more or less hand in hand 
today.
    A crisis in the region would affect all of us, and we must 
be prepared to respond to it together. Arms control as well as 
confidence and security building measures are essential parts 
of the European security order. Sweden strongly supports 
continued and complete implementation of the Vienna Document 
and Open Skies instruments.
    Europe has a key role in meeting the global challenges and 
threats. Our response must be guided by democratic principles 
and values. It needs to be firm, clear, and long term, and it 
needs to build upon European and transatlantic unity. Together 
we must show that we stand up for international law and 
international security order.
    Thank you very much for your attention.
    Mr. Wicker. And thank you very much, Secretary Lind.
    And now we're delighted to recognize Director General 
Kuusela.

   DIRECTOR-GENERAL JANNE KUUSELA, DIRECTOR-GENERAL, DEFENSE 
   POLICY DEPARTMENT, MINISTRY OF DEFENSE OF THE REPUBLIC OF 
                            FINLAND

    Dir. Gen. Kuusela. Thank you, Chairman, distinguished 
members of the commission.
    Coming from Helsinki, I would like to first salute you for 
the great name of your commission--[laughter]--and I'd also 
like to thank you for taking the time and coming here to our 
region. I think this--your presence here very clearly 
demonstrates your commitment to the European security and 
stability, and your willingness to work with your allies and 
partners in this region.
    A lot has already been covered by my fellow panelists, so I 
will limit myself to very brief remarks from the Finnish point 
of view. Seen from Finland, the U.S. and NATO's responses to 
Russian annexation of Crimea have been well balanced and 
tailored to meet the needs of allies and partners. The European 
Deterrence Initiative, together with the decisions that NATO 
has taken to enhance its defense and deterrence, including the 
enhanced-forward-presence troops to the Baltic States and 
Poland, they have been very positive. They have increased the 
security and stability of our region, and they send the right 
signal.
    Finland is not a member of NATO, but we share the same 
security environment with the Alliance, and we believe that 
strong Finnish defense contributes also to regional security. 
And I'm proud to say that Finnish defense has never been as 
capable and as interoperable as it is today. This is mostly 
also thanks for our partners' cooperation, and I hope this also 
benefits our partners.
    Since the cold war ended, many European countries 
transformed their armed forces and focused attention to crisis 
management and counterinsurgency. Finland never did that 
change. The defense of our own territory has always been the 
main task for the Finnish defense forces, and we have been--we 
have kept investing into it. And these investments will 
continue to the future. The ongoing replacement of our air 
force's F-18 fighter aircraft fleet, and the ongoing program to 
build new corvette-sized ships for the Navy, they will take our 
defense spending above the 2 percent of GDP early next decade.
    And in addition, we have also invested a lot of time and 
effort to modernize our legislation to meet the needs of the 
new security environment, including the hybrid threats. Today 
no country can rely on national action alone, and for us, 
cooperation with our partners is a necessity. For a small 
country, that is the most effective way to build capabilities 
and ensure interoperability.
    And in the past years, Finland has been deepening the 
defense cooperation with NATO and with those countries that 
have a role in the security architecture in the Baltic Sea 
region. In the case of Finland, this cooperation is not based 
on treaty obligation, but on strong common interest. 
Participation in NATO-led and other multinational operations, 
as well as training and exercising together, are key elements.
    Eastern cooperation lays the foundation for what we can do 
in times of crisis, and I believe this is in line with the 
United States' national defense strategy as well. A network of 
alliances and partnerships supports your goal to create a 
favorable regional balance of power in Europe.
    And before I conclude, let me also say a couple of words 
about resilience against hybrid threats. We rely on our 
national Total Defence model, which we have been developing 
since the Second World War, and we are confident with this 
model, which is the reason why Finland made the initiative to 
establish the European Centre of Excellence for Countering 
Hybrid Threats in Helsinki, and we hope this center will help 
all its members--EU and NATO--to build understanding and 
resilience against hybrid threats.
    So to conclude with, I'd like to underline that the 
transatlantic relationship will continue to define European 
security in the future as well, and the commitment of the 
United States to NATO and its military presence in Europe 
continue to be essential for the Baltic Sea's regional 
security.
    Thank you.
    Mr. Wicker. Thank you very much, Mr. Director General, and 
before we move to questions, let me thank you for acknowledging 
the name of the Helsinki Commission. For those in the audience 
who do not know where that came from, we named the United 
States' role in participating in the OSCE Parliamentary 
Assembly the Helsinki Commission in honor of the Helsinki Final 
Act, which was the founding document of the Organization for 
Security and Cooperation in Europe, whose parliamentary 
assembly we'll be attending beginning tomorrow in Luxembourg.
    The Helsinki Final Act includes principles that the 
signatory countries agreed to impose upon themselves. The 
signatory countries at the time of the founding act included 
Russia and the USSR, and signed on behalf of that nation and 
those nations by General Secretary Brezhnev, and signed on 
behalf of the United States by President of the United States 
Gerald R. Ford, and by the leaders of some 30-something 
countries who signed the founding document at the time.
    These are not principles that are being forced on some 
foreign adversary country against our will. We voluntarily--all 
of the signatories, including General Secretary Brezhnev, 
including President Ford--voluntarily agreed that in the 
interest of security and cooperation in Europe, we should agree 
to these principles and abide by them. So thank you for giving 
me that opportunity.
    We're going to now have 5-minute rounds of questioning, and 
I have on my list Representative Aderholt of Alabama and then 
Representative Zeldin of New York.

 HON. ROBERT B. ADERHOLT, COMMISSIONER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Aderholt. Thank you, Mr. Chairman, and let me also 
thank each of you for being here. And I think we're all 
actually--as has been mentioned, we are a little bit making 
history today because it is the first time that this Commission 
has convened a hearing outside of the United States, and that's 
in--over a 40-year history. So we're--I'm honored to be a part 
of it as I know you are as well.
    I want to just open it up and--anyone who wants to answer--
get your thoughts on it, regarding the Russian submarine 
activity in the Baltic Sea. It's not a secret that Russian 
presence in the Baltic Sea is ever present, and I guess one of 
the things that I would have--wanted to know your thoughts on 
is how concerned are you with Russia's activity, and also, is 
there such a scenario that you could--whereby the Russian 
forces would actually shut down access to the Baltic Sea and 
cut off maritime supply lines to the Baltic Sea? Is such a 
scenario credible? So let me just open it up, and please, 
whoever would like to start--to begin.
    Mr. Wicker. So who will begin? Mr. Lind, were you----
    Sec. Lind. Yes.
    Mr. Wicker. You had your hand up, and then General 
Secretary Kuusela.
    Sec. Lind. Thank you very much for that very important 
question. Let me answer the question by this--in this way, that 
Sweden has always put a lot of emphasis on the submarine fleet. 
We still construct and build our own submarines, and it has to 
be related to the threat we see in the Baltic Sea. So by that 
you could answer that--from our perspective that we are 
concerned. I mentioned that we are concerned with the Russian 
behavior in the air, on the sea, but I think it's fair to say 
under the sea level as well.
    So of course it's a major concern for us as well. And I 
think you have to be aware of the fact--and I mentioned that as 
well--that civilian sea traffic, as you see--the vessels, 
merchandise, vessels you see--it's one of the busiest areas in 
the world in the Baltic Sea. So even though we might not 
encounter an attack from the Russian side by military forces, 
but we have to be very aware of the potential threat of an 
attack which will largely damage our supply lines, if you will, 
even though we have the big harbor in Gothenburg on the west 
coast of Sweden, which is of great importance to many of the 
Nordic nations. It has to be looked into a Baltic Sea 
perspective as well because we have to secure our lines of 
supplies to all the nations. So it is considered a major threat 
to us as well.
    Thank you.
    Mr. Wicker. Director General Kuusela.
    Dir. Gen. Kuusela. Thank you, Chairman. I just shortly add 
to that. It is an issue for countries in the Baltic Sea region, 
and that's why many of us have developed a good set of anti-
submarine warfare capabilities, and it's also one area where we 
focused and we work jointly with Finland and Sweden.
    The Baltic Sea is a tricky region for maritime domain 
warfare. It's shallow, rocky, it has salinity layers that make 
it tricky both for submarines and the surface combatants, and 
it takes some regional expertise to wage a war in that region.
    And just to underline that the security of supply by 
maritime routes is vital for a country like Finland. We are an 
island basically when it comes to security of supply, and 
that's why the freedom of navigation in the Baltic Sea is a 
very big issue for us.
    Maj. Gen. Krol. Okay, a little bit more from military 
perspective. Of course, for Baltic Sea as it was--it has 
already been described, it's not so--like the depth of the huge 
sea. Nevertheless, from our perspective, it's supposed to be 
very easy for Russia simply to block the entire Baltic Sea and 
any enforcement by the sea lines of communication won't be 
possible. So at least from that perspective it is absolutely 
critical to monitor all Russian capabilities developing in this 
area.
    From the other perspective, Baltic Sea is very narrow from 
perspective of naval missile systems--200 kilometers, for 
example, and we can cover entire southern and northern part of 
the Baltic Sea so any surface movement of the Russian navy 
could be monitored, could be targeted or countered by our own 
means.
    The submarines--that's another issue. It is very difficult 
to monitor. It's--the only way to cover its movement, and this 
is real threat in case of any operation at the sea.
    Thank you.
    Mr. Wicker. Minister Karoblis, would you like to----
    Min. Karoblis. Yes, thank you very much. Yes, so the 
submarines and possibility to--well, to block the 
communications through the Baltic is certainly the big risk, 
and it's of the essential importance to have these lines of 
communication open.
    But from our perspective, all the risks which we have 
around, with the possibilities to block Baltic entrance by the 
land, by the air and the sea, we assess equally very risky, and 
really we need the solution starting from the defense planning, 
the maritime and the air defense dimensions would be there, and 
then of course capabilities. Well, these are the ways to--for 
the solutions to avoid the blockage of the Baltic region so--by 
Russia.
    Thanks.
    Mr. Wicker. Thank you very much.
    Representative Zeldin.

       HON. LEE M. ZELDIN, A REPRESENTATIVE FROM NEW YORK

    Mr. Zeldin. Thank you, Mr. Chairman. And we have people 
back home who are watching us, so if I could--if you wouldn't 
mind indulging me once again for those who might just be tuning 
in, I just want to remind them who the distinguished five are 
in front of us.
    Raimundas Karoblis, Minister of National Defense, 
Lithuania; Major General Krzysztof Krol, Deputy Chief of 
Defense, Poland; Kristjan Prikk, Permanent Secretary of the 
Ministry of Defense, Estonia; Jan-Olof Lind, State Secretary to 
the Minister of Defense, Sweden; and Janne Kuusela, Director-
General, Defense Policy Department, Ministry of Defense, 
Finland, thank you for being here.
    And an American value and an American worldview: We want 
your countries to be free, stable, secure. We have--up and down 
the ranks of our military and in our government, it's in our 
DNA wanting and being willing to sacrifice greatly to help 
ensure that your countries are stable and free. We have service 
members who would be willing to spill blood, sacrifice greatly, 
even fight and die to defend your freedom, and we're here 
talking about another nation where the ranks are filled with 
individuals who would fight and die to take that freedom away.
    And that's why I'm so proud to be here, and I'm very proud 
of my own country as you all are proud of yours. And I think 
it's important, if you wouldn't mind further indulging me, to 
take a moment and speak to our constituents back home, to speak 
to our country back home. They are several thousands of miles 
away. They don't know this region like you do. They don't know 
your countries like you do, so in simple terms, can you explain 
briefly what our alliance between our countries mean, and a 
message to them as to why this region should matter to them, 
and why this American value should continue and this American 
world view would continue?
    Min. Karoblis. Well, thank you very much indeed, and well, 
first of all I would to thank for this general question, but 
also, this is the question of values, and speaking about 
Lithuanian relation with United States so the--we will never 
forget--the Lithuanians will never forget of the non-
recognition policy by the United States. The United States has 
never recognized Lithuania or the Baltic countries as the part 
of the Soviet, did not recognize the occupation and annexation.
    And also, in 2000, we had the visit of the President Bush, 
and we have the plate on the town hall of Lithuania that the 
enemies of Lithuania also are enemies of United States, and 
this is really encouraging. And yes, we are in Europe, we are 
European country and so we are part of the collective defense 
system which is defending the sound values, which is--I think 
it's about that. And we are the part of the Alliance with the 
same value, we are of the NATO, and we are of the European 
Union also.
    And of course relationship with United States is the 
strategic one, and also, yes, we are getting a lot of 
guarantees from the security guarantees so the--from the United 
States also. And these guarantees of NATO and the United States 
are essential--they are of essential importance for Lithuania.
    So, on the other hand, I think that from my different 
experiences in different positions, and remembering also 2001 
September events, indeed really while, yes, Europe and Western 
civilizations need the leadership of United States, but on the 
other hand we understand that United States also needs the 
allies, which the closest ally is Europe, and in particular of 
our region. And shoulder-to-shoulder our soldiers, they 
participate in the foreign operations, ensuring their security 
shoulder-to-shoulder with U.S. troops and other troops. And our 
already long-time participation here is the reflection that 
United States could really rely on Lithuanian support and 
participation also where it's necessary, and the same we expect 
also from others.
    So I think that these are the main elements in the trade 
section in which we are concentrating and we need to continue 
to concentrate on once again. We are really thankful for U.S. 
commitments regarding the interests and the security of Baltic 
region.
    Mr. Wicker. Thank you.
    Mr. Harris, I believe you said you had a quick observation 
that you'd like to make, and then I suppose we will close the 
hearing and----
    Mr. Harris. Thank you. Thank you very much, Mr. Chairman.
    Sec. Prikk. [Off mic.]
    Mr. Wicker. Mr. Prikk, would you like to follow up and 
respond?
    Sec. Prikk. I think for the sake of just saving time and 
giving the Congressman possibly to ask a new question I will 
abstain.
    Mr. Wicker. Thank you. Mr. Harris.
    Mr. Harris. Thank you, Mr. Chairman, and thank you for the 
timeliness of this hearing, 2 days before we begin the OSCE 
deliberations--parliamentary assembly deliberations in 
Luxembourg. And I want to thank all the members of the panel.
    I want to point out that it's my feeling that energy 
security is very, very, important. We discussed Nord Stream 2 
on the last panel. But I firmly believe that, you know, Russian 
dominance in energy markets is not stabilizing to the region. 
Energy security is stabilizing. I had the opportunity to visit 
Lithuania, to Klaipeda to the FSRU [floating storage 
regasification unit] there. Poland, I understand, is 
considering an FSRU right here in Gdansk, which I think will 
greatly promote stability in the region, and I think the United 
States stands ready to be an energy partner.
    You know, again--you know, we heard from the general on the 
last panel. Certainly our ability to project military force is 
important, but the United States now has the ability to project 
energy force, energy power that I think will be a great 
stabilizing influence.
    So Mr. Chairman, again it's a pleasure to be here in Gdansk 
where we may have another facility which will import American 
energy.
    I yield back.
    Mr. Wicker. Well, thank you very much, Representative 
Harris. And let me thank each and every one of our witnesses on 
this panel and also the previous panel for being with us today. 
There are members of the press here who may want to speak 
individually with any of you, and I hope you will feel free to 
do that.
    Let me just say, I'm up here with white hair. I feel quite 
young, but I think I have the whitest hair and the--may be the 
senior-most in terms of years lived.
    This is an emotional moment for me, I have to tell you. 
Growing up I never dreamed I would be in Poland at a free 
hearing, in a free Poland that chooses its own leaders and 
exercises freedom, and is a friend of democracies around the 
region, and a part of the Atlantic Alliance.
    So looking back at the ground we've covered in decades is 
profound and rewarding to me. And it gives me hope for some of 
our neighbors in the region who have not been so fortunate, 
that events can occur, and that the hope, and dream, and 
aspiration of freedom springs deep from the hearts of all 
humankind.
    And so I salute you all for what you've stood for, for 
where you have to stand for it, for being friends of ours. And 
I hope our presence today makes a strong statement to that 
effect. So bless you, and thank you.
    And on behalf of the United States of America and the 
Helsinki Commission, I will adjourn this hearing.
    Thank you so much. [Sounds gavel.]
    [Whereupon, at 5:07 p.m., the hearing ended.]

=======================================================================


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


Prepared Statement of Hon. Roger F. Wicker, Co-Chairman, Commission on 
                   Security and Cooperation in Europe

    The Commission will come to order, and good afternoon to 
everybody.
    Welcome to today's field hearing on ``Baltic Sea Regional 
Security.''
    Ladies and Gentlemen, this event is the first time in its 
43-year history that our Commission convenes outside of the 
United States.
    We are here, of course, to learn from the incredible group 
of panelists who have agreed to be with us today. But we are 
also here to underscore America's commitment to security in the 
Baltic Sea region and its unwavering support for U.S. friends 
and allies.
    Before going any further, I want to begin by thanking the 
Government of Poland, which has been extremely gracious in 
working with us to organize our event here in this 
extraordinary city.
    Indeed, we are especially pleased to be able to hold this 
event in the historic city of Gdansk. There could be no more 
fitting place for us to understand the stakes at play when we 
talk about Baltic Sea regional security. After all, it was just 
a short distance from here that the first shots of the Second 
World War were fired, as Poland, despite a valiant defense, 
became one of the first victims of Nazi Germany.
    The people of Poland endured a cruel and devastating 
occupation that was followed by nearly 40 years of repressive 
Communist rule. Through it all, they never lost their core 
conviction that their nation belonged among free democracies.
    Fittingly, it was also in Gdansk where the movement began 
to end that terrible era, taking historic and courageous steps 
to reclaim democracy. I am speaking of course about the 
Solidarity movement that became synonymous with the 
transformative wave of protest that swept across eastern Europe 
and ended with the collapse of communism across the region, and 
with the end of the Soviet Union, the end of the Soviet Union's 
violent and illegal occupation of Estonia, Latvia and 
Lithuania.
    Since that time, Poland has become a good friend, important 
partner, and stalwart NATO ally, and has at long last assumed 
its rightful place as a leader in a stable and prosperous 
Transatlantic community. We recognize that journey has not been 
easy, but nothing worthwhile ever is. Poland was given another 
chance at freedom, and it has not squandered that opportunity.
    I also want to mention that just a few moments ago we went 
to the Basilica of the Assumption of the Blessed Virgin Mary in 
order to pay tribute to the late Mayor Pawel Adamowicz, who was 
murdered just a few months ago. We met Deputy Mayor of Gdansk 
Alan Aleksandrowicz and we expressed America's deepest 
condolences for the loss that this city has experienced. Poles 
will undoubtably draw inspiration from Mayor Adamowicz's legacy 
in public service and civic virtue.
    Ladies and Gentlemen, as we sit today less than 80 miles 
from Russia's border, citizens of Gdansk are the last to need a 
reminder that the Kremlin has in recent years shattered notions 
of a predictable, stable regional order with its illegal 
occupation of Crimea and ongoing war against Ukraine. Vladimir 
Putin's attempts to stoke division and instability abroad is 
felt every day by our friends in this region.
    Our delegation well understands that freedom, peace and 
prosperity in the Baltic Sea region is crucial to European and 
global security. This region sits at the epicenter of Europe's 
``New North''--a unique intersection of geography, 
infrastructure, education, good governance, and high-technology 
industries. Eighty million people live here and profit from the 
region's key role in European shipping and transit; the region 
is also a focal point for Europe's energy independence.
    We hope that our conversation with today's panelists will 
provide a better understanding of how our collective efforts 
will continue to thwart Russia's desire to undermine the peace 
and security of this crucial region. We want to get a sense of 
the threats we should be most concerned about, as well as a 
clear understanding of the ways we may best move forward 
together.
    Moving forward together certainly includes standing 
shoulder to shoulder with the two non-NATO partners present 
before us, Finland and Sweden. Our former Secretary of Defense 
General Mattis put it well recently when he saluted ``both of 
your nations' serious approaches to security in support of a 
global order that respects all nations' sovereignty and 
territorial integrity, providing a steady anchor of stability 
in a region grown more tense as a result of Russia's 
unfortunate, unproductive and destabilizing choices.'' \1\
---------------------------------------------------------------------------
    \1\  Transcript, ``Secretary Mattis Hosts an Armed Forces Full 
Honor Arrival Welcoming Finland Minister of Defence Jussi Niinisto and 
Sweden Minister of Defence Peter Hultqvist to the Pentagon,'' May 8, 
2018.
---------------------------------------------------------------------------
    Before hearing from our panelists, I want to close by being 
as clear as I can about what our delegation is here to say: 
that under no circumstance can we be divided from our friends 
and allies, here or anywhere else. I was reminded of this key 
principle when I participated in the commemoration of the 75th 
anniversary of D-Day in Normandy. I am certain all of my 
colleagues are unanimous in their agreement with the sentiment 
President Trump expressed on that occasion: ``To all of our 
friends and partners: Our cherished alliance was forged in the 
heat of battle, tested in the trials of war, and proven in the 
blessings of peace. Our bond is unbreakable.''
    Our event will proceed in two parts: first, we will hear 
from a panel of officials from the U.S. Government. This panel 
features two speakers: the Deputy Commander of United States 
European Command, Lt. Gen. Stephen M. Twitty, and Douglas 
Jones, the Deputy Permanent Representative of the United States 
to NATO. Thank you both for traveling from Germany and 
Brussels, respectively, to be here.
    We have but a short time with these distinguished panelists 
and so, with their permission, I will not read their 
biographies, so that we may move directly to hearing their 
important presentations.
    Thank you both again for being here.

[For the second panel.]

    Let me again thank our first panel for their excellent 
contributions. They have given us a great deal on which to 
reflect, as well as provoking a number of questions we will put 
to the distinguished second panel sitting before us now.
    We have an extraordinary set of senior officials from this 
region seated here today. I want to express my profound 
gratitude to all of you for taking the time to join us here in 
Gdansk--I look forward to hearing from each of you.
    We now will hear from the following senior leaders: 
Ambassador Cyryl Kozaczewski, Political Director, Ministry of 
Foreign Affairs of the Republic of Poland; Raimundas Karoblis, 
Minister of National Defense, Republic of Lithuania; Janne 
Kuusela, Director-General, Defense Policy Department, Ministry 
of Defense of the Republic of Finland; Jan-Olof Lind, State 
Secretary to the Minister for Defense, Kingdom of Sweden; and 
Kristjan Prikk, Permanent Secretary of the Ministry of Defense, 
Republic of Estonia.
    As with the first panel, with our guests' permission, I 
will skip providing their impressive biographies in the 
interest of time.
    Our panelists have agreed to offer 5 minutes of opening 
remarks to offer their perspective on the regional security 
environment before we engage in discussion together.

       Prepared Statement of Lieutenant General Stephen M. Twitty

Introduction
    Chairman Wicker and distinguished members of the Helsinki 
Commission, it is my honor to testify before you today on 
behalf of United States European Command (USEUCOM) Commander 
GEN Wolters and the over 68,000 brave and dedicated men and 
women who are currently operating in the European Theater. The 
threats facing U.S. interests in the USEUCOM area of 
responsibility are real and growing; our ability to counter 
these threats depends on this highly motivated team of patriots 
who constantly strengthen solidarity and unity with our Allies 
and partners as they improve the lethality and warfighting 
readiness of our Joint Force. Defending Europe is an essential 
element of defending the United States given our shared values, 
adherence to the rule of law, and common economic prosperity. 
As stated in the National Defense Strategy (NDS), a strong and 
free Europe, bound by shared principles of democracy, national 
sovereignty, and commitment to Article 5 of the North Atlantic 
Treaty is vital to our security.
    As demonstrated last month in the U.S./Poland Joint 
Declaration, Estonia, Latvia, Lithuania and Poland are a focal 
point of U.S. and NATO deterrence and defense posture and 
activities as Russia attempts to intimidate these nations, both 
politically and militarily. Consistent with the direction of 
the NDS, the United States is fielding--alongside our European 
Allies and partners--an interoperable and multi-domain combat-
credible force that underscores our shared deterrent mission, 
and demonstrates an unwavering commitment to the collective 
defense provisions of the North Atlantic Treaty from all NATO 
members. When the Kremlin looks to the West, they see a 
cohesive Alliance that has both the military capability, and 
political will to defend its member nations.
    Knowing the military strength of the Euro-Atlantic 
Alliance, Russia seeks to engage us in a competition below the 
level of armed conflict in order to exploit asymmetric 
advantages. We are actively engaged in that competition, and it 
is one that requires all elements of our national power and 
alliance structures to succeed. The Joint Force of the United 
States combined with the capabilities and capacity of our NATO 
Allies and partners are a powerful force of historical 
proportions and continue to demonstrate to Russia the 
capability and will to honor our collective security 
agreements. In cooperation with our NATO partners, we seek to 
deter Russian adventurism as well as address other key 
challenges, including trans-national terrorists, and addressing 
the arc of instability building on NATO's periphery.

Russia--the primary threat to the Euro-Atlantic Alliance
    Russia is a long term, strategic competitor that wants to 
advance its own objectives at the expense of Transatlantic 
prosperity and security. It sees the United States and the NATO 
Alliance as the principle threat to its geopolitical ambitions. 
Moscow continues to demonstrate a willingness to violate 
international law, to exercise malign influence, and to 
threaten the Transatlantic community's shared interest in 
preserving a strong and free Europestrong and. Moscow seeks 
authoritative control over nations along its periphery and is 
intent on undermining NATO by actively seeking and exploiting 
fissures in Alliance solidarity. President Putin continues to 
actively pursue global influence with aggressive foreign and 
security policies concerning the sovereign countries on 
Russia's periphery. Russia continues to expand its capacity for 
malign influence in Europe and abroad, including in the United 
States.
    Russia seeks to gain advantage over the U.S. and its 
European Allies through non-compliance with long-standing arms 
control treaties. Its violation of the Intermediate-Range 
Nuclear Forces (INF) Treaty, Treaty on Open Skies, and 
Conventional Armed Forces in Europe Treaty allows Russia to 
develop capabilities as well as posture them in an advantageous 
manner due to our historical adherence to these treaties. The 
capability imbalance created by Russia's violation of the INF 
Treaty is especially concerning and presently holds much of 
Europe at risk from systems banned by the Treaty, and is the 
reason the Treaty will terminate on August 2 unless Russia 
returns to full and verifiable compliance. Russia recklessly 
ignores longstanding professional and safety practices in the 
air and at sea, as demonstrated by the recent unprofessional 
maneuvers of a Russian aircraft in the East Mediterranean and 
the Russian destroyer Admiral Vinogradov's unsafe maneuver 
within 50-100 feet of the USS Chancellorsville in the 
Philippine Sea.
    The most blatant example of Russia's willingness to use 
aggression in the disregard of another nation's sovereignty is 
in Russia's self-proclaimed near abroad. Russia invaded 
Ukraine, seized Crimea, launched cyber-attacks against the 
Baltic States and Ukraine, and most recently, unjustifiably 
attacked, and then seized and detained Ukrainian vessels and 
sailors in the Sea of Azov. After the 2008 Russo-Georgian War, 
Russia purported to recognize the independence of the Georgian 
regions of South Ossetia and Abkhazia, and stationed troops on 
sovereign Georgian territory. Russia currently occupies a fifth 
of Georgian territory and maintains a significant military and 
border security presence in and around Abkhazia and South 
Ossetia.
    Russia is committed to achieving its strategic objectives 
in Europe without direct military conflict and through a 
combination of military and non-military indirect actions 
designed to exploit weaknesses and fissures in targeted 
countries. These efforts seek to fracture political and 
security institutions in Europe and discredit and subvert 
democratic processes. The Kremlin employs a whole of society 
approach through a wide array of tools to include political 
provocateurs, information operations, economic intimidation, 
cyber operations, religious leverage, proxies, special 
operations, as well as conventional military forces.President 
Putin's autocratic approach to governing has transformed 
Russia's oligarchs into an independent and powerful societal 
element with enormous influence. The oligarchs serve at the 
pleasure of President Putin, and both gain and exercise 
economic control for the state and for themselves. It is 
estimated that just over a 100 individuals control a third of 
Russia's wealth. These oligarchs provide the Kremlin with a 
corrupt and de-stabilizing NGO-like influence both internal and 
external to Russia.

Strengthen Allies and Attract New Partners
    The ties that bind the Euro-Atlantic Alliance are knotted 
with a shared belief in the value and importance of democratic 
institutions. Our nations' leaders must be accountable to the 
people that elected them into office. This includes checks and 
balances between branches such as legislative oversight of the 
executive branch and independent Court systems. Civilian 
leadership of the military is essential to a balanced 
government that will not imprudently seek armed conflict to 
achieve national objectives. We also embrace diversity, not 
only as the right thing to do, but as a central source of our 
strength. We embody diversity among our respective nations, but 
also within individual countries, having equal rights and 
opportunities for all people regardless of their race, gender, 
or sexual orientation. We also share a firm belief that the 
need for prosperity is rooted in our economic value and market 
based systems that continue to drive the global economy and 
prosperity for all.
    One of the most visible demonstrations of the commitment of 
the United States government to Transatlantic security is the 
European Deterrence Initiative (EDI). Since 2015, the United 
States Congress has authorized and appropriated nearly $17 
Billion in EDI funds in response to Russia's aggression and 
malign influence. EDI underwrites our nation's enhanced 
deterrence and defense posture throughout the theater by 
positioning the right capabilities, in key locations, in order 
to respond to adversarial threats in a timely manner. EDI also 
signals to our NATO Allies and partners of the United States' 
commitment to Article 5 and the territorial integrity of all 
NATO nations, and is a major source of sustaining Alliance 
cohesion. Lastly, EDI increases the capability and readiness of 
U.S. Forces, NATO Allies, and regional partners, allowing for a 
faster response in the event of aggression by a regional 
adversary against the sovereign territory of NATO nations.
    Baltic nations have participated and specifically 
benefitted from EDI funding in improvements to posture, 
enhanced training, and improved infrastructure. For example, 
U.S. Air Forces Europe (USAFE) is working with the Baltic 
nations to further develop infrastructure and host nation 
support at airfields such as Lielvarde Air Base in Latvia and 
Amari Air Base in Estonia. Additionally, the U.S. Marine Corps 
executes engagements and participates in bilateral and 
multilateral exercises with the Baltic nations to improve 
tactical combined arms integration.
    Following Russia's attempted annexation of Crimea and 
invasion of eastern Ukraine, the United States and NATO 
immediately re-focused our engagements along the Alliance's 
Eastern flank, including in the Baltic region. As former 
Soviet-occupied states, the Baltics share geographic proximity 
as well as historic relations with Russia. Given Russia time-
distance advantages and a communicated desire to regain control 
in their former buffer states, the National Defense Strategy 
makes clear that the United States will continue to improve its 
lethality and combat credible forward posture to bolster our 
deterrence in the region.
    The Baltics are a focus area for U.S. security assistance 
in Europe. In FY18, USEUCOM's Building Partnership Capacity 
(BPC) activities included border security initiatives, 
enhancing counter-transnational threats, and Special Operations 
Forces (SOF) and vertical lift capabilities. Section 333 of the 
National Defense Authorization Act (NDAA) Global Train and 
Equip funding is particularly helpful in applying a regional 
Baltic approach to security cooperation and conducting BPC 
activities across multiple warfighting functions. Lastly, 
USEUCOM is working a proposed $435 million Integrated Air and 
Missile Defense (IAMD) project to assist Lithuania, Latvia, and 
Estonia's development of a robust command and control network. 
This new critical IAMD capability will contribute to NATO 
deterrent efforts and contributes to the overall combat-
credibility of our combined force posture. Our security 
cooperation efforts in the Baltics are rapidly building 
capability and demonstrating alliance unity.
    We have shifted significant U.S. forces in the Baltic 
region by adopting changes in Operation ATLANTIC RESOLVE. 
Previously, there was one U.S. Company on six-month rotations 
in each of the Baltic nations; we now support a periodic, 
exercise-based presence in the region in addition to 
undertaking lead nation responsibilities for the NATO Enhanced 
Forward Presence (eFP) battle group in Poland.; The U.S. eFP 
Battle Group became fully operationally capable in 2017 in 
Poland, while the United Kingdom, Canada, and Germany act as 
framework nations for eFP Battle Groups in Estonia, Latvia, and 
Lithuania respectively. The U.S. also participates in NATO 
Force Integration Units (NFIUs) in the Baltics with a small 
contingent of U.S. personnel assigned to each NFIU.
    The Baltic region is also a major focus area for USEUCOM 
and NATO exercises. AUSTERE CHALLENGE is the Command's premiere 
staff training event to address the Russian Problem Set. 
AUSTERE CHALLENGE 2019 validated elements of our contingency 
planning and increased Service Component specific execution in 
support of major combat operations. Our Northern Exercise 
series is executed every even numbered year and allows 
synergistic and massed deterrent effects by linking our Joint 
Exercise Program, Service Component Title 10 exercises, and 
NATO and partner nation exercises. Additionally, through Naval 
Striking and Support Forces NATO (STRIKFORNATO), the U.S. co-
leads (with Germany) the annual Baltic Operations (BALTOPS) 
exercise to practice high-end warfare and amphibious landing 
capability and interoperability in the Baltic Sea.
    USEUCOM and NATO continue to execute operational efforts to 
ensure interoperability with our Baltic Allies, demonstrate 
NATO resolve, and deter Russian aggression in the Baltic 
region. USEUCOM supports NATO activities in the region 
reinforcing NATO Article 3 and 5 obligations such as NATO's 
Baltic Air Policing (BAP) mission. The USS Gridley serves as 
the Flagship for the Standing NATO Maritime Group 1 providing 
persistent maritime presence in the Baltic and North Sea. U.S. 
Army Europe (USAREUR) is conducting operations as part of their 
Emergency Deployment Readiness Exercise in the Baltics with 
CONUS-based rotational armored forces. And USAFE maintains a 
persistent aviation detachment in Lask, Poland.
    Cyber defense is another key focus area for USEUCOM and 
NATO. The Fiscal Year 2019 NDAA advanced cyberspace operations 
and identified U.S. policy in cyberspace as ``multi-
pronged,''--building response, denial, and cost-imposition 
options. USEUCOM's Joint Cyber Center (JCC), in coordination 
with USCYBERCOM, is building up its Integrated Planning Teams 
as a central and key element in our planning and exercises. 
Both the AUSTERE CHALLENGE and GLOBAL LIGHTNING exercises 
integrated cyber activities in their initial phases. Our JCC is 
working with Allies to refine the NATO cyberspace operations 
center standard operating procedures and doctrine to 
accommodate voluntary contributions of cyberspace capabilities 
in support of allied operations and movements.
    To mitigate Russia's time / distance advantages, USEUCOM is 
working alongside our Allies and partners to enhance our 
Indications and Warnings (I&W) of any potential aggression. We 
are leveraging language expertise resident in European nations 
and are utilizing non-traditional ISR platforms to mitigate the 
global shortage of high-demand, low-density assets. We continue 
to grow our intelligence and analytical capability to meet our 
steady state and contingency planning requirements.
    Together, we stand in solidarity with all of NATO in 
support of our Baltic Allies. Spreading the costs of this 
commitment is important and the four nations in this region 
have already demonstrated their willingness to contribute, by 
meeting their NATO burden-sharing commitment to spend 2% of GDP 
on defense.

Conclusion
    EDI continues to be essential to our forward deployment of 
personnel and equipment as we work with our NATO Allies to 
increase our responsiveness and agility along the Eastern 
flank. Fielding a combat-credible force that routinely 
demonstrates its capability and willingness will remain a 
pillar of our deterrence mission and to ensure Europe remains 
strong and free.
    We remain committed to increasing our capabilities and 
demonstrating our readiness in the region through exercises 
such as BALTOPs; and although we already have significant 
capabilities to continue to deter Russia, we also know that we 
are always stronger together.
    Fortunately, we are not alone in meeting these challenges. 
As stated in the U.S. National Security Strategy, the NATO 
Alliance of free and sovereign states is one of our greatest 
advantages over our competitors and the United States remains 
committed to Article 5 of the North Atlantic Treaty. This goes 
beyond augmenting U.S. forces with enablers and force 
multiplying capacity. Our bonds are strengthened by a shared 
commitment to collective defense, democratic principles, and 
mutual respect of national sovereignty. Ultimately, the United 
States is safer when Europe is prosperous and stable and we 
work on daily basis to defend our shared interests and Western 
democratic values.

 Prepared Statement of Deputy Permanent Representative Douglas D. Jones

    Chairman Hastings, Co-Chairman Wicker, distinguished 
Commissioners, and Members of Congress, thank you for the 
opportunity to testify on behalf of the United States Mission 
to NATO. This field hearing is a timely contribution to the 
discussion on the future of the transatlantic relationship and 
NATO's role in deterring and defending Alliance territory and 
people. I commend you for your leadership in bringing this 
discussion into the Baltic Sea region where our complex and 
competitive relationship with Russia plays out on a daily 
basis.
    For more than 70 years, NATO has stood at the center of the 
transatlantic relationship. It has done its two primary jobs 
well: deterring conflict and preparing to win war if necessary. 
The Alliance has stood the test of time and continues to be the 
political and military bulwark against the most dangerous and 
complex threats facing the Transatlantic region. The United 
States is more secure when Europe is strong and free. For that 
reason, the U.S. commitment to NATO and to the security of our 
Allies is iron-clad.
    I am pleased to report to you that our Alliance remains 
strong and unified. The fundamentals of NATO are sound, and 
NATO has responded admirably to a quickly changing security 
environment. Important adaptations for the Alliance at 
consecutive NATO Summits in Wales, Warsaw and Brussels have 
served to realign NATO's defensive posture, capability and 
planning in light of evolving threats. But much more will be 
required of Allies to meet security challenges going forward, 
many of which stem from Russian attempts to undermine our 
Alliance and our security.
    The challenge posed by Russia in the Baltic Sea region is 
serious and concerning. Russia is pursuing a comprehensive 
strategy aimed at undermining NATO Allies and partners through 
sowing doubt in our populations by interfering in sovereign 
democratic procedures, creating security dilemmas on our 
borders and globally, eroding the international security 
architecture with violations of long-standing treaties, all 
while pursuing a robust military modernization to include 
nuclear, space, and cyber capabilities. Collectively, these 
steps represent an assertive and provocative Russia that is 
determined to fracture our Alliance. We know that Russia seeks 
to use its instruments of power to prevent NATO from performing 
its collective defense responsibilities.
    The Baltic Sea region is at the heart of this Russian 
strategy, where the Kaliningrad Oblast has become among the 
most militarized corners of the planet. Moscow's military 
build-up is buttressing its anti-access/area denial 
capabilities that would seek to prevent reinforcement and 
military maneuver along the eastern flank of the Alliance. It 
is also using Kaliningrad as a home base for nuclear-capable 
Iskander missiles in the heart of the Alliance. Russian 
military jets periodically engage in unsafe and unprofessional 
intercepts of U.S. and Allied flights in the skies over the 
Baltic Sea. In the maritime domain, we increasingly see similar 
dangerous maneuvering from Russian naval vessels in the Baltic 
Sea waters. Russian jamming of Allied and partner GPS signals 
during last year's NATO exercise Trident Juncture was just the 
latest example of how Russia's behavior puts lives at risk and 
creates tremendous tension that could have severe 
ramifications.
    Beyond the conventional threat, Russia also uses hybrid 
tactics and schemes intended to fall below the threshold of 
conflict but nonetheless create effects that provide Russia 
political and military advantages. We have seen Russia coerce 
neighbors through the disruption of energy exports, mount 
sophisticated cyber operations, and use a chemical nerve agent 
in an assassination attempt on an Ally's territory. These 
hybrid actions are all meant to exploit ambiguity and conceal 
the instigator's role.
    Russia treats the Baltic Sea region as its own backyard, 
yet we must recall that six NATO countries--and two key 
partners in Finland and Sweden--border the Baltic Sea. The 
overall security picture in the Baltic Sea region is clearly 
one in which the United States and NATO must play an important 
role. And while the focus of today's discussion is the region 
specifically, these trends are also playing out in the Black 
Sea region, the Eastern Mediterranean, and the high North 
Atlantic. It is our responsibility to connect those dots, grow 
our resilience and ensure, beyond any doubt, that our defenses 
are adequate.
    In response to these increasing threats, NATO took concrete 
steps in 2016 and 2018 to strengthen deterrence and defense in 
the Baltic region. Foremost, NATO created an enhanced Forward 
Presence consisting of multinational Battlegroups in Poland and 
the Baltic states with contributions from across the Alliance. 
These Battlegroups are a visible and capable demonstration of 
NATO's foundational principle that an attack on one is an 
attack on all. NATO also continued its Baltic Air Policing 
mission designed to augment the air security of the region and 
show that Russian intimidation against any Ally would not 
succeed in peeling them away from the Alliance. NATO also 
developed a new strategy for responding to hybrid threats and 
established a mechanism to deploy Counter Hybrid Support Teams 
to support Allies in responding to this new, amorphous threat. 
NATO continues to strengthen its cyber defense, through the 
establishment of a new Cyberspace Operations Center and an 
Intelligence Division. By agreeing that cyber is now an 
operational domain, NATO has ensured that it incorporates cyber 
into all its operations. NATO has worked in building relations 
and expertise in cyber and hybrid through Centers of Excellence 
in Finland and Estonia. NATO also took steps to substantially 
increase high-end warfighting readiness at the 2018 Brussels 
Summit at which Heads of State and Government agreed to place 
an additional 30 mechanized battalions, 30 kinetic air 
squadrons, and 30 combatant vessels at a level of ``ready to 
employ'' within 30 days. And NATO is bolstering its 
relationship with key Enhanced Opportunity Partners Finland and 
Sweden through exercises and capability development. Finland 
and Sweden are regular participants at NATO defense and foreign 
ministerials--a sign of our enduring, close and reliable 
relationships. NATO is working quickly to update and modernize 
our warfighting concepts and approaches with the development of 
a new Joint Air Power strategy, enhancements to our maritime 
posture, and a new NATO space policy which was agreed only last 
week at the Defense Ministerial. NATO is also responding to 
Russia's violations of international law. At the end of 2018, 
NATO Allies uniformly declared that Russia is in violation of 
the Intermediate-Range Nuclear Forces (INF) Treaty because of 
its development and deployment of the SSC-8 ground-launched 
intermediate-range cruise missile. NATO Allies supported the 
U.S. decision to suspend its obligations under and ultimately 
to withdraw from the Treaty if Russia does not return to full 
and verifiable compliance. Since Russia has so far given no 
sign it intends to return to compliance, our military and 
defense advisors have been hard at work preparing for a world 
without the INF Treaty, developing options and recommendations 
for how the Alliance will adjust with respect to intelligence, 
capability development, planning and exercising.
    The United States continues to do its part in each of these 
areas, thanks in large part to the sustained support of 
Congress. Our commitment to Baltic security has been 
demonstrated through the European Deterrence Initiative (EDI) 
which exceeds six billion dollars in 2019. EDI is an 
unmistakable signal of U.S. resolve to ensure the readiness, 
responsiveness, and resilience of our forces in Europe. Most 
clear is the commitment we have shown through deployments right 
here in Poland with heel-to-toe rotations for the eFP 
Battlegroup located in Orzysz, not far from the Suwalki Gap. 
Further, the recent joint declaration of the United States and 
Poland regarding the plan to increase the number of rotational 
U.S. forces stationed in Poland will complement a comprehensive 
and credible warfighting presence in Europe. It will also 
directly enhance the readiness and capacity of an increasingly 
professional and capable Polish military, accruing multiple 
benefits to the Alliance and our strategic approach to Russian 
aggression. I am grateful for the opportunity to be joined by 
Lt. Gen. Twitty who will be able to account for all of these 
military activities from his perspective at European Command.
    In addition to the many adaptations I have underscored 
earlier, to be an Alliance ``fit for purpose'' we must first 
and foremost ensure we have the resources necessary to sustain 
a credible deterrent and the requisite defense capabilities. 
For the United States, your support in Congress has assured 
that we will lead by example with defense investments that keep 
our military prepared. But this approach is not shared by all 
Allies. In fact, sustaining our Alliance military dominance 
will only be possible if all Allies meet their commitments 
under the Wales Defense Investment Pledge to spend 2% of their 
GDP on national defense. This is the foundation and minimum 
requirement we need to sustain our warfighting edge, whether it 
is through capability development, readiness, or operational 
deployments.
    The United States continues to call on our Allies to make 
the appropriate investments, or we will either not be prepared 
or we will begin to operate as an unbalanced and bifurcated 
Alliance. I'd echo the sentiments of former U.S. Defense 
Secretary Robert Gates who openly expressed concerns about a 
two-tier Alliance, one tier made up of those Allies willing and 
able to pay the price and bear the burdens of Alliance 
commitments, and another tier of Allies who enjoy the benefits 
of NATO membership--be they security guarantees or headquarters 
billets--but do not share the risks and the costs. Continued 
underinvestment in defense by some Allies will not be durable 
in the modern security environment and it will only serve to 
increase the precarious situation we find in the Baltic Sea 
region.
    Mr. Chairman, I will finish where I started. This year we 
celebrated the 70th anniversary of the Alliance in Washington, 
D.C. That was a tremendous milestone. But it was not the only 
anniversary. Allies also celebrated the 20th anniversary of 
NATO's enlargement to include Poland, Hungary, and the Czech 
Republic in 1999. The vision and wisdom that led to that 
decision, and thus the entire reason we are able to convene 
here in Gdansk today, must continue to guide us with new 
pressures mounting. We are making progress, but so much more 
remains to be done. The state of the Alliance is strong, but we 
must continue to adapt to ensure our collective security for 
the next 70 years.

           Prepared Statement of Minister Raimundus Karoblis

    Dear Colleagues, Ladies and Gentlemen,
    I am highly honored to speak in front of such a 
distinguished US Congress delegation.
    Thank you very much for travelling all the way from the 
United States; and for your keen interest in the security 
situation of the Baltic region.
    The city of Gdansk is a very appropriate place to conduct 
field hearings on the Baltic security. We are just 50 miles 
away from Kaliningrad, one of Russia's Anti-Access/Aria-Denial 
(A2/AD) fortresses. The missiles that are based in Kaliningrad 
(and there are many, including the nuclear-capable Iskander) 
are targeting NATO forces in Europe,--their ability to 
reinforce the Baltics in particular.
    Russia's intermediate-range missiles (SSC-8), which have 
been deployed in violation of the INF Treaty, also seek to 
undermine NATO's ability to move forces in Europe and to 
conduct collective defense. This is a matter of grave concern 
to the countries located in Russia's neighborhood.
    For many reasons--geographic, historic, societal--the 
Baltic region is bound to remain the most vulnerable part of 
the Alliance. It will therefore require special attention of 
NATO military planners.
    Year after year, we observe Russia exercising operations 
against NATO in the Baltics. The focus of these exercises is 
the Suwalki corridor--a narrow strip of land between Lithuania 
and Poland. It is critical for the defense of this region.
    In case of conflict, Polish and Lithuanian forces will have 
a special role--to keep this corridor open for Allied 
reinforcements. To succeed, we need credible NATO military 
plans, regular exercises as well as full engagement of the 
United States with its unique military capabilities.
    Taking the opportunity, I would like to thank the US 
Congress for your resolute support to NATO and to the Trans-
Atlantic link, which is at the core of our security. We should 
not allow other policy issues and disagreements--be it on 
trade, climate or Middle East--damage the defense relations 
between Europe and the United States.
    I would also like to thank the US Congress for the 
assistance that your country provides to the Lithuanian Armed 
Forces.
    With US support we were able to accelerate our capability-
development programs in line with NATO priorities; expand 
military infrastructure (which is also used by NATO Allies); as 
well as to increase our large-caliber ammunition stockpiles.
    This is a mutually beneficial cooperation. Since 2014, the 
United States has invested nearly $80 million to support the 
Lithuanian Armed Forces. In the same period, Lithuania has 
committed more than $200 million in national funds to purchase 
US defense articles. This figure is likely to grow as new major 
projects are currently under consideration.
    Mr. Chairman, esteemed members of the Congress, I am proud 
that Lithuania, together with our Baltic neighbors and Poland, 
are among those Allies who already spend 2 percent (or more) of 
the GDP on defense. This shows our serious approach to national 
security as well as to our NATO commitments.
    We are determined to act as security providers and to show 
solidarity with our Allies. Lithuania has deployed forces to 
all key operational theaters, including Afghanistan, Iraq, 
Mali, and Ukraine. Our troops have served side-by-side with 
American soldiers for many years now; and the cooperation 
between the US and Lithuanian Special Operations Forces is 
truly legendary.
    At present, we are working with the US SOF Command Europe 
on a new, very interesting project to improve situational 
awareness and intelligence sharing in the Baltic region.
    I would also like to highlight our very close and 
productive cooperation with the Pennsylvania National Guard. 
This partnership is already more than 25 years old and is of 
great value to our countries.
    We are also grateful to the US for leading the process of 
NATO adaptation to the new security realities. There is 
substantial progress in a number of areas, including overall 
defense spending within the Alliance.
    NATO Command Structure and plans will be adjusted to meet 
the requirements of Article-5 situations. In this regard, we 
welcome the reestablishment of the US Second Fleet, which has 
just completed its first major exercise in the Baltics.
    The Alliance also works to improve the readiness of NATO 
forces and to facilitate military movement across Europe. These 
key strands of work is the enduring legacy of the former US 
Defense Secretary James Mattis.
    In conclusion, Mr. Chairman, I would like to highlight two 
areas, which, in our view, will require special attention over 
the coming months:
    One relates to the recently announced deployment of 
additional US forces to Poland, which we sincerely welcome.
    Presence of US troops significantly changes the risk 
calculus in the Kremlin, making military challenge to NATO 
considerably less likely. We hope therefore that these 
additional US forces will be used to maximize their deterrence 
value for the entire Baltic region.
    The second issue is Air Defense. This is a critical 
capability gap in the Baltics, which we urgently need to 
address through our national and NATO efforts.
    The new SACEUR, Gen. Tod Wolters, is fully aware of the 
situation and we look forward to working closely with his staff 
at SHAPE and US European Command to address this critical 
shortfall.
    Mr. Chairman, I thank you once again for giving me the 
opportunity to address this distinguished group of US 
Congressmen; and I very much look forward to our follow-on 
discussions.

        Prepared Statement of Permanent Secretary Kristjan Prikk

    Chairman, distinguished commissioners, let me first thank 
you for this very positive initiative to hold this field 
hearing in Europe, to hold it in this distinguished city of 
Gdansk, and inviting also Estonia to present our views.

    NATO's posture in the Baltic region has grown much stronger 
since 2014. We now have permanently based NATO Battlegroups in 
all Baltic states, an enhanced NATO air policing presence, and 
more Allied maritime visits to our ports. We see an increased 
number of NATO and Allied live exercises in the region.

    The recently announced additional presence of a larger 
contingent of American troops in Poland further strengthens 
NATO's posture regionally. It is important that those troops 
also have a footprint in the Baltics. This would significantly 
add credibility to NATO's deterrence in the Baltic states.

    This would significantly add credibility to NATO's 
deterrence in the Baltic states. However, we all need to 
understand that the current NATO presence is and was never 
designed to be militarily a match to what Russia has in 
Kaliningrad and the western military district and the 
capabilities that they can mobilize very quickly, as we have 
seen during the latest large-scale exercises.

    The current NATO presence is primarily political, and 
intended to show that NATO and its members would be involved in 
any conflict with Russia from day one.

    This critical, but nevertheless limited presence, is 
intended to be complemented by a very quick reinforcement by 
NATO in case of a crisis. The problem is that the bulk of NATO 
forces is still far away, and our ability to deploy forces 
quickly and sustain them has important limitations.

    Issues such as the readiness and mobility of our forces, 
the preparation required by means of detailed advance plans, 
live exercises and swift decision-making need further work. 
Today Russia plans and exercises in this region exactly as they 
fight, and we do not. After all these years in NATO we have yet 
to tackle the issue of whether we are really able to treat 
Russia as a potential aggressor.

    NATO has discussed the need to improve its ability to 
defend against air threats and strengthen its maritime posture 
for years. Despite some steps in the right direction, we are 
still not very far along.

    In particular, NATO has assessed time and again that the 
Russian air and missile defence and precision strike 
capabilities would mean a considerable challenge to NATO's 
lines of communications and reinforcement. The new SSC-8 
capability that is in breach of the INF Treaty will add another 
capability into the Russian hands to attack critical targets in 
the whole of European theatre. All this affects NATO's ability 
to guarantee the security of this region.

    NATO's posture in itself is an empty shell without real 
solidarity between Allies. And while we are strengthening 
collective defence in practice, we must not forget that 
communication is a critical part of deterrence.

    This concerns every Ally, but in particular the American 
commitment to the Alliance, and it's willingness to go to war 
for maintaining Euro-Atlantic security. Therefore, it is of 
utmost importance that we--we all, Europeans and North 
Americans alike--use any opportunity to clearly send the 
message of unwavering commitment and solidarity to each other. 
We collectively have benefitted so much from the alliance. We, 
individually and collectively, have so much to lose from being 
alone.

    Thank you for listening!

          Prepared Statement of State Secretary Jan-Olof Lind

    The military-strategic situation in our region has 
deteriorated. The region has become less secure. Let me start 
by highlighting the main reason for this.
    Russia's actions in Georgia and Ukraine, have shown that 
Russia is prepared to use military force to change established 
borders in Europe. The illegal annexation of Crimea and 
aggression in eastern Ukraine is the greatest challenge to the 
European security order since it was established 25 years ago.
    Russia is using a broad variety and combinations of methods 
and actions to achieve its objectives. This is often referred 
to as hybrid threats. The Russian aggression in Ukraine is one 
example of Russia's intention to coordinate relevant 
instruments of state power with the use of proxy fighters to 
achieve political goals.
    In parallel, Russia has showed a more challenging behaviour 
in the Baltic Sea Region, including disrespect of its 
neighbours' territorial integrity as well as provocative and 
unprofessional behaviour in the air and on the sea. Because of 
Russian interests in the region, and as it is one of the 
busiest shipping-areas in the world, the significance of the 
Baltic Sea Region to European security has increased. Freedom 
of navigation and secure Sea Lines of Communications are 
essential, not only for the countries in the region but also 
for other nations.
    Let me be clear, Russian activities are not only a 
challenge to the countries in its close vicinity, they are a 
challenge to the right of every country to make their own 
policy choices. This is a cornerstone in the rules-based world 
order and the European security order. Therefore, Russian 
actions are a concern to us all and make our response all the 
more important.
    The complexity and scale of the challenges at hand means 
that no state can face them alone. Together we need to use the 
entire range of security policy instruments; enhanced national 
defence capability, international cooperation and dialogue and 
confidence-building measures.
    Challenges to European security must be met together, but 
on the national level, every country must take their share of 
the responsibility.
    This is why Sweden is pursuing a defence policy with two 
reinforcing pillars. We are strengthening our national military 
capability. The Swedish total defence concept is developed in 
order to meet an armed attack against Sweden, including acts of 
war on Swedish territory. This is part of our work to counter 
hybrid threats and includes improving our psychological 
defence.
    We are also deepening our security and defence cooperation. 
Sweden gives priority to the cooperation with our Nordic 
neighbours, with Estonia, Latvia and Lithuania, with Poland and 
Germany as well as the United Kingdom and the USA. We are also 
focusing our efforts with and within multilateral 
organisations, the EU and NATO. Regional cooperation like the 
Nordic defence cooperation and the UK-led Joint Expeditionary 
are important to complement the security network in Northern 
Europe.
    A strong transatlantic link is important for both European 
and American security. US and NATO presence is necessary for 
the stability in the Baltic Sea Region.
    Therefore, we welcome NATO's Enhanced Forward Presence and 
the increased US presence in Europe through the European 
Deterrence Initiative. The EDI has been instrumental for 
exercises and other joint activities. Exercises in the Baltic 
Sea region signals shared responsibility for the security. 
Maritime exercises like BALTOPS and BALTIC PROTECTOR enhances 
our interoperability and strengthen our common maritime 
capability.
    Sweden will continue to be an active partner to NATO and 
our status as Enhanced Opportunities Partner is key in this 
regard. This relationship is crucial to develop our 
interoperability and capabilities.
    Political dialogue on common security challenges and how to 
counter them, in particular in the Baltic Sea region, is 
essential in our cooperation with NATO. We see northern Europe 
as one strategic area. A crisis in this region would affect all 
of us and we must be prepared to respond to it together. This 
calls for close dialogue and cooperation.
    Arms control as well as confidence and security building 
measures are essential parts of the European security order. 
Sweden strongly supports continued and complete implementation 
of the Vienna Document and Open Skies instruments.
    The challenges we are facing point to long term 
destabilization. Europe has a key role in meeting the global 
challenges and threats. Our response must be guided by 
democratic principles and values. It needs to be firm, clear 
and long-term. And it needs to build upon European and 
transatlantic unity. Together we must show that we stand up for 
international law and the European security order.

          Prepared Statement of Director-General Janne Kuusela

    Response by the United States and NATO to Russian 
annexation of Crimea have been well balanced and tailored to 
meet the needs of Allies and Partners. European Reassurance 
Initiative--now known as European Deterrence Initiative--
together with the NATO's measures to enhance its defense and 
deterrence, including the deployment of troops to Baltic States 
and Poland, have been very positive. They all have increased 
security and stability of the Baltic Sea region. The US 
commitment to European security promotes multinational 
cooperation amongst Europeans as well.
    Finland is not a member of NATO, and there are no US or 
NATO troops in Finland. Yet, we share the same security 
environment with the Alliance and benefit from the security and 
stability your presence has created. In addition, bigger 
footprint by the US and NATO have created more training and 
exercise opportunities for the Finnish Defense Forces.
    Defense cooperation has enhanced the lethality of our 
capabilities and our interoperability with the most important 
countries in the regional security architecture. The Finnish 
defense has never before been as a capable and as interoperable 
as it is today. We believe that strong Finnish defense 
contributes also to regional security and benefits our 
Partners.
    After the Cold War ended, many European countries 
transformed their armed forces and focused attention to crisis 
management and counterinsurgency operations. With 1300 
kilometres of land border with Russia, Finland never did that 
change. The defense of our own territory has always been the 
main task of Finnish Defense Forces and the main driver for 
capability development, and we have kept investing into it. 
These investments will continue also in the future. Replacement 
of Air Force's F/A-18 Hornet fleet and procurement of new 
corvette-sized ships for Navy will increase our defence 
spending above 2 % of the GDP in early 2020s.
    In addition to defense material procurement, we have also 
invested a lot of time and effort to modernize our legislation. 
In fact, during the last four years our Parliament passed 
largest defence-related package of legislation since the Second 
World War. The new legislation improves our readiness and 
surveillance of territorial integrity; allows us to provide and 
receive international military assistance during crises; and 
helps us to deal with foreign ownership of land areas and real 
estate. Perhaps the most important legislative issue was the 
new law on intelligence, which required amending the 
Constitution.
    Today however, no one can rely on national action alone. 
For us, cooperation with our partners is a necessity. Defence 
cooperation is the most effective way to build capabilities and 
ensure interoperability. Acquisition of modern capabilities 
will also enhance deepening and widening of defense 
cooperation. This has been our observation ever since we bought 
the F/A-18 Hornets from the US. This brings me to my third 
point: the security architecture of the Baltic Sea region.
    In the current security environment, it is important that 
we can deepen our cooperation further if needed. In the case of 
Finland, this cooperation is not based on treaty obligations, 
but on strong common interests. Finnish defense benefits our 
Partners, and actions by the US and NATO benefit Finland.
    In the past years, Finland has been significantly deepening 
the defense cooperation with NATO and with those countries that 
have a role in the security architecture of the Baltic Sea 
region. Participation in NATO led operations as well as 
training and exercising together are key elements for us.
    Peacetime cooperation lays the foundation for what we can 
do in times of crisis. That is why also information sharing, 
consultation and deconflicting is necessary.
    I believe this is in line with the US National Defense 
Strategy as well: network of alliances and partnerships 
supports your goal to create a favourable regional balance of 
power in Europe.
    Arms control, tackling hybrid threats and Finnish EU 
Presidency are also issues that are relevant issues in the 
context of this Commission hearing.
    Finland believes that there is a need to preserve and 
further advance the general arms control and disarmament 
processes. We call for further progress on all aspects of 
disarmament in order to enhance global security. Multisectoral 
and concrete cooperation in combating these challenges in arms 
control and nonproliferation is needed. Transparency, 
confidence and security building measures, and risk reduction 
are key elements to this end. Of course, also the United 
States-Russia dialogue on arms control is of key importance to 
global, European and Finland's security.
    The post-INF situation presents a challenge to all of 
Europe, NATO allies and partners alike, and unity in dealing 
with the situation is essential. Information sharing is crucial 
in ensuring that our message remains united. In terms on 
responses, we support dual track approach: reinforcing defence 
and deterrence in Europe, while at the same time remaining 
committed to effective international arms control and open to 
constructive dialogue with Russia.
    When it comes to building resilience against hybrid 
threats, we rely on the Finnish model of Comprehensive 
Security, which we have been developing since the Second World 
War. A key role is played by the Security Committee, which 
assists the Government and different sectoral Ministries on 
issues dealing with comprehensive security. We are confident 
with our national model, which is one reason why Finland made 
the initiative to establish the European Centre of Excellence 
for Countering Hybrid Threats in Helsinki. We hope the Centre 
will help all its Members, together with EU and NATO, build 
understanding and resilience against hybrid threats.
    Yesterday Finland took over the rotating Presidency of the 
Council of the EU. In this role, we will do our best to take 
forward the EU defense agenda in support of High Representative 
Mogherini. This is a time of transition in the EU, as the old 
guard is leaving and new leadership is arriving. In the field 
of defense, the new initiatives are mostly in place, and the 
focus is now on implementation.
    However, it is also time to look ahead. Only a truly 
capable Europe can be an effective and reliable partner. That 
is why Finland wants to focus our work for example on 
digitalization and artificial intelligence in the field of 
defence. We will also highlight the need to improve European 
capacities to detect and understand hybrid activities. In 
addition, we will do our best to promote EU-NATO cooperation, 
as well as EU-US dialogue and cooperation.
    To conclude with, I would like to underline that the 
transatlantic relationship will continue to define European 
security in the future as well. The commitment of the United 
States to NATO and its military presence in Europe continue to 
be essential to Baltic Sea regional security. Cooperating with 
the United States, both bilaterally and within the framework of 
NATO, is important for Finland's national defence.

                                 [all]

  
  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
